Docket No.

United States Supreme Court
o

SHERRI COHEN
Petitioner,

-againstEQUIFAX INFORMATION SERVICES LLC and
TRANSUNION LLC
Respondents.
o-

On Petition for Writ of Certiorari to the
United States Court of Appeals for the
Second Circuit, No. 19-3063

APPENDIX FOR PETITION
Sherri Cohen
Pro Se
P.O.Box 4171
Middletown, New York 10941
(845) 381-2775
mwervpersonalpapers@gmail.com
November^, 2020

TABLE OF CONTENTS
VERBATIM STATUTORY PROVISIONS
Appendix
Page No.
1
6

14
15

Item Description
15 U.S.C. §1681e(b)
15 U.S.C. §1681i(a)
15 U.S.C. §1681n(a)
15 U.S.C. §1681o (a)
ORDERS/DECISIONS IN QUESTION

Appendix
Page No.
16
25

34
58

Item Description
Magistrate Recommendation, dated 4/17/19
District Court Order dated 5/20/19
District Court Order dated 9/13/19
Second Circuit Decision dated 9/10/20
SIGNIFICANT PORTIONS OF THE RECORD

Appendix
Page No.

Item Description

68

New York Attorney General Settlement, Dated March 8, 2015

115

Statement of Material Facts, by Equifax, dated June 14, 2019

126

Trans Union’s Rule 56.1 Statement of Material Facts, in
Support of Motion for Summary Judgment, Dated June 14,
2019

149

Affidavit of Don Wagner, June 14, 2019

165

Declaration of Celestina Gobin, June 14,2019

173

November 15, 2017 Dispute to Equifax by Attorney White

178

November 15, 2017 Dispute to TransUnion by Attorney White

182

TransUnion Consumer Statement dated 10/19/2017 (TU
001013 - 001015)

1

185

TransUnion Consumer Statement dated 02/22/2018 (TU
001120-001135)

201

Dispute Line Item (TU001054-001084), December 1, 2017

226

November 26, 2017 Automated Consumer Dispute Verification
for Applied Bank

228

November 26, 2017 Automated Consumer Dispute Verification
for Citibank CBNA

235

November 26, 2017 Automated Consumer Dispute Verification
for Capital One

246

November 26, 2017 Automated Consumer Dispute Verification
for Capital One

256

November 26, 2017 Automated Consumer Dispute Verification
for Citibank CBNA

263

November 26, 2017 Automated Consumer Dispute Verification
for Capital One

265

Credit Denial Capital One, May 2, 2018

267

Credit Denial Paypal, April 1, 2019

268

Credit Denial Ebates, August 22, 2017

270

Identity Guard Locked Out, July 17, 2018

277

Letter Confirming Address Does Not Exist, November 23,
2018

278

Letter TransUnion Counsel re Credit Access To File, Dated
November 30, 2018

279

Transcript Call To Equifax, July 26, 2019

303

Transcript Call To TransUnion, July 26, 2019

309

Transcript Call To TransUnion, July 26, 2019

314

Transcript Call To IdentityGuard, July 26, 2019

324

Reply to TransUnion Statement of Material Facts by Plaintiff,
August 27, 2019

2

377

Equifax Cases

380

Rule 11 Sanction Threat

3

VERBATIM STATUTORY PROVISIONS
15 U.S.C. §1681e(b) - Compliance procedures
(a) Identity and purposes of credit users
Every consumer reporting agency shall maintain reasonable procedures designed
to avoid violations of section 1681c of this title and to limit the furnishing of
consumer reports to the purposes listed under section 1681b of this title. These
procedures shall require that prospective users of the information identify
themselves, certify the purposes for which the information is sought, and certify
that the information will be used for no other purpose. Every consumer reporting
agency shall make a reasonable effort to verify the identity of a new prospective
user and the uses certified by such prospective user prior to furnishing such user a
consumer report. No consumer reporting agency may furnish a consumer report to
any person if it has reasonable grounds for believing that the consumer report will
not be used for a purpose listed in section 1681b of this title.
(b) Accuracy of report
Whenever a consumer reporting agency prepares a consumer report it shall follow
reasonable procedures to assure maximum possible accuracy of the information
concerning the individual about whom the report relates.
(c) Disclosure of consumer reports by users allowed
A consumer reporting agency may not prohibit a user of a consumer report
furnished by the agency on a consumer from disclosing the contents of the report
to the consumer, if adverse action against the consumer has been taken by the user
based in whole or in part on the report.
(d) Notice to users and furnishers of information
(1) Notice requirement. A consumer reporting agency shall provide to any
person—
(A) who regularly and in the ordinary course of business furnishes
information to the agency with respect to any consumer; or
(B) to whom a consumer report is provided by the agency;
a notice of such person’s responsibilities under this subchapter.
(2) Content of notice
The Bureau shall prescribe the content of notices under paragraph (1), and a
consumer reporting agency shall be in compliance with this subsection if it
provides a notice under paragraph (1) that is substantially similar to the Bureau
prescription under this paragraph.
(e) Procurement of consumer report for resale

SCP-4

(1) Disclosure. A person may not procure a consumer report for purposes of
reselling the report (or any information in the report) unless the person
discloses to the consumer reporting agency that originally furnishes the
report—
(A) the identity of the end-user of the report (or information); and
(B) each permissible purpose under section 1681b of this title for which the
report is furnished to the end-user of the report (or information).
(2) Responsibilities of procurers for resale. A person who procures a consumer
report for purposes of reselling the report (or any information in the report)
shall—
(A) establish and comply with reasonable procedures designed to ensure
that the report (or information) is resold by the person only for a purpose for
which the report may be furnished under section 1681b of this title,
including by requiring that each person to which the report (or information)
is resold and that resells or provides the report (or information) to any other
person—
(i) identifies each end user of the resold report (or information);
(ii) certifies each purpose for which the report (or information) will be
used; and
(iii) certifies that the report (or information) will be used for no other
purpose; and
(B) before reselling the report, make reasonable efforts to verify the
identifications and certifications made under subparagraph (A).
(3) Resale of consumer report to a Federal agency or department.
Notwithstanding paragraph (1) or (2), a person who procures a consumer
report for purposes of reselling the report (or any information in the report)
shall not disclose the identity of the end-user of the report under paragraph (1)
or (2) if—
(A) the end user is an agency or department of the United States
Government which procures the report from the person for purposes of
determining the eligibility of the consumer concerned to receive access or
continued access to classified information (as defined in section
1681b(b) (4) (E) (i) [1] of this title); and
(B) the agency or department certifies in writing to the person reselling the
report that nondisclosure is necessary to protect classified information or
the safety of persons employed by or contracting with, or undergoing
investigation for work or contracting with the agency or department.
(Pub. L. 90-321, title VI, § 607, as added Pub. L. 91-508, title VI, § 601, Oct. 26,
1970, 84 Stat. 1130; amended Pub. L. 104-208, div. A, title II, § 2407, Sept. 30,1996,
110 Stat. 3009-435; Pub. L. 105-107, title III, § 311(b), Nov. 20,1997, 111 Stat. 2256;
Pub. L. 111-203, title X, § 1088(a) (2) (A), July 21, 2010,124 Stat. 2087.)

SCP-5

15 U.S.C. §1681i(a) - Procedure in case of disputed accuracy
(a) Reinvestigations of disputed information
(1) Reinvestigation required
(A) In general
Subject to subsection (f) and except as provided in subsection (g), if the
completeness or accuracy of any item of information contained in a
consumer’s file at a consumer reporting agency is disputed by the consumer
and the consumer notifies the agency directly, or indirectly through a
reseller, of such dispute, the agency shall, free of charge, conduct a
reasonable reinvestigation to determine whether the disputed information is
inaccurate and record the current status of the disputed information, or
delete the item from the file in accordance with paragraph (5), before the
end of the 30-day period beginning on the date on which the agency receives
the notice of the dispute from the consumer or reseller.
(B) Extension of period to reinvestigate
Except as provided in subparagraph (C), the 30-day period described in
subparagraph (A) may be extended for not more than 15 additional days if
the consumer reporting agency receives information from the consumer
during that 30-day period that is relevant to the reinvestigation.
(C) Limitations on extension of period to reinvestigate
Subparagraph (B) shall not apply to any reinvestigation in which, during the
30-day period described in subparagraph (A), the information that is the
subject of the reinvestigation is found to be inaccurate or incomplete or the
consumer reporting agency determines that the information cannot be
verified.
(2) Prompt notice of dispute to furnisher of information
(A) In general
Before the expiration of the 5-business-day period beginning on the date on
which a consumer reporting agency receives notice of a dispute from any
consumer or a reseller in accordance with paragraph (1), the agency shall
provide notification of the dispute to any person who provided any item of
information in dispute, at the address and in the manner established with the
person. The notice shall include all relevant information regarding the
dispute that the agency has received from the consumer or reseller.
(B) Provision of other information

SCP-6

The consumer reporting agency shall promptly provide to the person who
provided the information in dispute all relevant information regarding the
dispute that is received by the agency from the consumer or the reseller
after the period referred to in subparagraph (A) and before the end of the
period referred to in paragraph (1) (A).
(3) Determination that dispute is frivolous or irrelevant
(A) In general
Notwithstanding paragraph (1), a consumer reporting agency may terminate
a reinvestigation of information disputed by a consumer under that
paragraph if the agency reasonably determines that the dispute by the
consumer is frivolous or irrelevant, including by reason of a failure by a
consumer to provide sufficient information to investigate the disputed
information.
(B) Notice of determination
Upon making any determination in accordance with subparagraph (A) that a
dispute is frivolous or irrelevant, a consumer reporting agency shall notify
the consumer of such determination not later than 5 business days after
making such determination, by mail or, if authorized by the consumer for
that purpose, by any other means available to the agency.
(C) Contents of notice. A notice under subparagraph (B) shall include—
(i) the reasons for the determination under subparagraph (A); and
(ii) identification of any information required to investigate the disputed
information, which may consist of a standardized form describing the
general nature of such information.
(4) Consideration of consumer information
In conducting any reinvestigation under paragraph (1) with respect to disputed
information in the file of any consumer, the consumer reporting agency shall
review and consider all relevant information submitted by the consumer in the
period described in paragraph (1) (A) with respect to such disputed
information.
(5) Treatment of inaccurate or unverifiable information
(A) In general. If, after any reinvestigation under paragraph (1) of any
information disputed by a consumer, an item of the information is found to
be inaccurate or incomplete or cannot be verified, the consumer reporting
agency shall—
(i) promptly delete that item of information from the file of the consumer,
or modify that item of information, as appropriate, based on the results of
the reinvestigation; and

SCP-7

(ii) promptly notify the furnisher of that information that the information
has been modified or deleted from the file of the consumer.
(B) Requirements relating to reinsertion of previously deleted material
(i) Certification of accuracy of information
If any information is deleted from a consumer’s file pursuant to
subparagraph (A), the information may not be reinserted in the file by the
consumer reporting agency unless the person who furnishes the
information certifies that the information is complete and accurate.
(ii) Notice to consumer
If any information that has been deleted from a consumer’s file pursuant
to subparagraph (A) is reinserted in the file, the consumer reporting
agency shall notify the consumer of the reinsertion in writing not later
than 5 business days after the reinsertion or, if authorized by the
consumer for that purpose, by any other means available to the agency.
(iii) Additional information. As part of, or in addition to, the notice under
clause (ii), a consumer reporting agency shall provide to a consumer in
writing not later than 5 business days after the date of the reinsertion—
(I) a statement that the disputed information has been reinserted;
(II) the business name and address of any furnisher of information
contacted and the telephone number of such furnisher, if reasonably
available, or of any furnisher of information that contacted the
consumer reporting agency, in connection with the reinsertion of
such information; and
(III) a notice that the consumer has the right to add a statement to
the consumer’s file disputing the accuracy or completeness of the
disputed information.
(C) Procedures to prevent reappearance
A consumer reporting agency shall maintain reasonable procedures
designed to prevent the reappearance in a consumer’s file, and in consumer
reports on the consumer, of information that is deleted pursuant to this
paragraph (other than information that is reinserted in accordance with
subparagraph (B)(i)).
(D) Automated reinvestigation system
Any consumer reporting agency that compiles and maintains files on
consumers on a nationwide basis shall implement an automated system
through which furnishers of information to that consumer reporting agency
may report the results of a reinvestigation that finds incomplete or
inaccurate information in a consumer’s file to other such consumer
reporting agencies.

SCP-8

(6) Notice of results of reinvestigation
(A) In general
A consumer reporting agency shall provide written notice to a consumer of
the results of a reinvestigation under this subsection not later than 5
business days after the completion of the reinvestigation, by mail or, if
authorized by the consumer for that purpose, by other means available to
the agency.
(B) Contents. As part of, or in addition to, the notice under subparagraph
(A), a consumer reporting agency shall provide to a consumer in writing
before the expiration of the 5-day period referred to in subparagraph (A)—
(i) a statement that the reinvestigation is completed;
(ii) a consumer report that is based upon the consumer’s file as that file is
revised as a result of the reinvestigation;
(iii) a notice that, if requested by the consumer, a description of the
procedure used to determine the accuracy and completeness of the
information shall be provided to the consumer by the agency, including
the business name and address of any furnisher of information contacted
in connection with such information and the telephone number of such
furnisher, if reasonably available;
(iv) a notice that the consumer has the right to add a statement to the
consumer’s file disputing the accuracy or completeness of the
information; and
(v) a notice that the consumer has the right to request under subsection
(d) that the consumer reporting agency furnish notifications under that
subsection.
(7) Description of reinvestigation procedure
A consumer reporting agency shall provide to a consumer a description
referred to in paragraph (6) (B) (iii) by not later than 15 days after receiving a
request from the consumer for that description.
(8) Expedited dispute resolution. If a dispute regarding an item of information
in a consumer’s file at a consumer reporting agency is resolved in accordance
with paragraph (5) (A) by the deletion of the disputed information by not later
than 3 business days after the date on which the agency receives notice of the
dispute from the consumer in accordance with paragraph (1) (A), then the
agency shall not be required to comply with paragraphs (2), (6), and (7) with
respect to that dispute if the agency—
(A) provides prompt notice of the deletion to the consumer by telephone;
(B) includes in that notice, or in a written notice that accompanies a
confirmation and consumer report provided in accordance with
subparagraph (C), a statement of the consumer’s right to request under
subsection (d) that the agency furnish notifications under that subsection;
and

SCP-9

(C) provides written confirmation of the deletion and a copy of a consumer
report on the consumer that is based on the consumer’s file after the
deletion, not later than 5 business days after making the deletion.
(b) Statement of dispute
If the reinvestigation does not resolve the dispute, the consumer may file a brief
statement setting forth the nature of the dispute. The consumer reporting agency
may limit such statements to not more than one hundred words if it provides the
consumer with assistance in writing a clear summary of the dispute.
(c) Notification of consumer dispute in subsequent consumer reports
Whenever a statement of a dispute is filed, unless there is reasonable grounds to
believe that it is frivolous or irrelevant, the consumer reporting agency shall, in any
subsequent consumer report containing the information in question, clearly note
that it is disputed by the consumer and provide either the consumer’s statement or
a clear and accurate codification or summary thereof.
(d) Notification of deletion of disputed information
Following any deletion of information which is found to be inaccurate or whose
accuracy can no longer be verified or any notation as to disputed information, the
consumer reporting agency shall, at the request of the consumer, furnish
notification that the item has been deleted or the statement, codification or
summary pursuant to subsection (b) or (c) to any person specifically designated by
the consumer who has within two years prior thereto received a consumer report
for employment purposes, or within six months prior thereto received a consumer
report for any other purpose, which contained the deleted or disputed information.
(e) Treatment of complaints and report to Congress
(1) In general. The Commission [1] shall—
(A) compile all complaints that it receives that a file of a consumer that is
maintained by a consumer reporting agency described in section 1681a (p) of
this title contains incomplete or inaccurate information, with respect to
which, the consumer appears to have disputed the completeness or accuracy
with the consumer reporting agency or otherwise utilized the procedures
provided by subsection (a); and
(B) transmit each such complaint to each consumer reporting agency
involved.
(2) Exclusion
Complaints received or obtained by the Bureau pursuant to its investigative
authority under the Consumer Financial Protection Act of 2010 shall not be
subject to paragraph (1).

SCP-10

(3) Agency responsibilities. Each consumer reporting agency described in
section 1681a (p) of this title that receives a complaint transmitted by the
Bureau pursuant to paragraph (1) shall—
(A) review each such complaint to determine whether all legal obligations
imposed on the consumer reporting agency under this subchapter
(including any obligation imposed by an applicable court or administrative
order) have been met with respect to the subject matter of the complaint;
(B) provide reports on a regular basis to the Bureau regarding the
determinations of and actions taken by the consumer reporting agency, if
any, in connection with its review of such complaints; and
(C) maintain, for a reasonable time period, records regarding the disposition
of each such complaint that is sufficient to demonstrate compliance with this
subsection.
(4) Rulemaking authority
The Commission 1 may prescribe regulations, as appropriate to implement this
subsection.
(5) Annual report
The Commission 1 shall submit to the Committee on Banking, Housing, and
Urban Affairs of the Senate and the Committee on Financial Services of the
House of Representatives an annual report regarding information gathered by
the Bureau under this subsection.
(f) Reinvestigation requirement applicable to resellers
(1) Exemption from general reinvestigation requirement
Except as provided in paragraph (2), a reseller shall be exempt from the
requirements of this section.
(2) Action required upon receiving notice of a dispute. If a reseller receives a
notice from a consumer of a dispute concerning the completeness or accuracy
of any item of information contained in a consumer report on such consumer
produced by the reseller, the reseller shall, within 5 business days of receiving
the notice, and free of charge—
(A) determine whether the item of information is incomplete or inaccurate
as a result of an act or omission of the reseller; and
(B) if—
(i) the reseller determines that the item of information is incomplete or
inaccurate as a result of an act or omission of the reseller, not later than
20 days after receiving the notice, correct the information in the
consumer report or delete it; or
(ii) if the reseller determines that the item of information is not
incomplete or inaccurate as a result of an act or omission of the reseller, 3CP~11

convey the notice of the dispute, together with all relevant information
provided by the consumer, to each consumer reporting agency that
provided the reseller with the information that is the subject of the
dispute, using an address or a notification mechanism specified by the
consumer reporting agency for such notices.
(3) Responsibility of consumer reporting agency to notify consumer through
reseller. Upon the completion of a reinvestigation under this section of a
dispute concerning the completeness or accuracy of any information in the file
of a consumer by a consumer reporting agency that received notice of the
dispute from a reseller under paragraph (2)—
(A) the notice by the consumer reporting agency under paragraph (6), (7),
or (8) of subsection (a) shall be provided to the reseller in lieu of the
consumer; and
(B) the reseller shall immediately reconvey such notice to the consumer,
including any notice of a deletion by telephone in the manner required
under paragraph (8) (A).
(4) Reseller reinvestigations
No provision of this subsection shall be construed as prohibiting a reseller
from conducting a reinvestigation of a consumer dispute directly.
(g) Dispute process for veteran’s medical debt
(1) In general
With respect to a veteran’s medical debt, the veteran may submit a notice
described in paragraph (2), proof of liability of the Department of Veterans
Affairs for payment of that debt, or documentation that the Department of
Veterans Affairs is in the process of making payment for authorized hospital
care, medical services, or extended care services rendered to a consumer
reporting agency or a reseller to dispute the inclusion of that debt on a
consumer report of the veteran.
(2) Notification to veteran
The Department of Veterans Affairs shall submit to a veteran a notice that the
Department of Veterans Affairs has assumed liability for part or all of a
veteran’s medical debt.
(3) Deletion of information from file
If a consumer reporting agency receives notice, proof of liability, or
documentation under paragraph (1), the consumer reporting agency shall
delete all information relating to the veteran’s medical debt from the file of the
veteran and notify the furnisher and the veteran of that deletion.

SCP-12

(Pub. L. 90-321, title VI, § 611, as added Pub. L. 91-508, title VI, § 601, Oct. 26,
1970, 84 Stat. 1132; amended Pub. L. 104-208, div. A, tide II, § 2409, Sept. 30,1996,
110 Stat. 3009-439; Pub. L. 105-347, § 6(5), Nov. 2,1998,112 Stat. 3211; Pub. L.
108-159, title III, §§ 313(a), 314(a), 316, 317, Dec. 4, 2003,117 Stat. 1994-1996,
1998; Pub. L. 111-203, titleX § 1088(a) (2)(C), (6), July 21, 2010,124 Stat. 2087;
Pub. L. 115-174, title III, § 302(b) (3), May 24, 2018,132 Stat. 1333.)

SCP-13

15 U.S.C. §1681n(a) - Civil liability for willful noncompliance
(a) In general. Any person who willfully fails to comply with any requirement
imposed under this subchapter with respect to any consumer is liable to that
consumer in an amount equal to the sum of—
(1)
(A) any actual damages sustained by the consumer as a result of the failure
or damages of not less than $100 and not more than $1,000; or
(B) in the case of liability of a natural person for obtaining a consumer report
under false pretenses or knowingly without a permissible purpose, actual
damages sustained by the consumer as a result of the failure or $1,000,
whichever is greater;
(2) such amount of punitive damages as the court may allow; and
(3) in the case of any successful action to enforce any liability under this
section, the costs of the action together with reasonable attorney’s fees as
determined by the court.
(b) Civil liability for knowing noncompliance
Any person who obtains a consumer report from a consumer reporting agency
under false pretenses or knowingly without a permissible purpose shall be liable to
the consumer reporting agency for actual damages sustained by the consumer
reporting agency or $1,000, whichever is greater.
(c) Attorney’s fees
Upon a finding by the court that an unsuccessful pleading, motion, or other paper
filed in connection with an action under this section was filed in bad faith or for
purposes of harassment, the court shall award to the prevailing party attorney’s fees
reasonable in relation to the work expended in responding to the pleading, motion,
or other paper.
(d) Clarification of willful noncompliance
For the purposes of this section, any person who printed an expiration date on any
receipt provided to a consumer cardholder at a point of sale or transaction between
December 4, 2004, and June 3, 2008, but otherwise complied with the requirements
of section 1681c (g) of this title for such receipt shall not be in willful noncompliance
with section 1681c (g) of this title by reason of printing such expiration date on the
receipt.
(Pub. L. 90-321, title VI, § 616, as added Pub. L. 91-508, title VI, § 601, Oct. 26,
1970, 84 Stat. 1134; amended Pub. L. 104-208, div. A, title II, § 2412(a)—(c), (e) (1),
Sept. 30,1996,110 Stat. 3009-446; Pub. L. 110-241, § 3(a), June 3, 2008,122 Stat.
1566.)

SCP-14

15 U.S.C. §1681o(a) - Civil liability for negligent noncompliance
(a) In general. Any person who is negligent in failing to comply with any
requirement imposed under this subchapter with respect to any consumer is liable
to that consumer in an amount equal to the sum of—
(1) any actual damages sustained by the consumer as a result of the failure; and
(2) in the case of any successful action to enforce any liability under this
section, the costs of the action together with reasonable attorney’s fees as
determined by the court.
(b) Attorney’s fees
On a finding by the court that an unsuccessful pleading, motion, or other paper
filed in connection with an action under this section was filed in bad faith or for
purposes of harassment, the court shall award to the prevailing party attorney’s fees
reasonable in relation to the work expended in responding to the pleading, motion,
or other paper.
(Pub. L. 90-321, title VI, § 617, as added Pub. L. 91-508, title VI, § 601, Oct. 26,
1970, 84 Stat. 1134; amended Pub. L. 104-208, div. A, tide II, § 2412(d), (e) (2), Sept.
30,1996,110 Stat. 3009-446, 3009-447; Pub. L. 108-159, title VIII, § 811(e), Dec. 4,
2003,117 Stat. 2012.)

SCP-15

Case l:18-cv-06210-JSR-KHP

Document 84

Filed 04/17/19 Page 1 of 9

USDCSDNY
DOCUMENT
ELECTRONICALLY FILED
DOC#:
DATE FILED: 04/17/2019

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
X
SHERRI COHEN,
Plaintiff,

OPINION. REPORT &
RECOMENDATIONS

-against-

1:18-CV-6210 (JSR) (KHP)
EQUIFAX INFORMATION SERVICES, LLC,
and TRANSUNION LLC,
Defendants.
—X
TO:
THE HON. JED S. RAKOFF, UNITED STATES DISTRICT JUDGE
FROM: KATHARINE H. PARKER, UNITED STATES MAGISTRATE JUDGE
Plaintiff Sherri Cohen brings this action pro se pursuant to the Fair Credit Reporting Act
("FCRA"), 15 U.S.C. §§ 1681 etseq., and New York's Fair Credit Reporting Act ("New York
FCRA"), N.Y. GBL §§ 380 et seq.1 Plaintiff contends that Defendants violated their statutory
obligation to report her consumer credit information accurately, causing her to be denied credit
cards and loans. She contends that Defendants have failed to implement and follow reasonable
procedures to assure maximum possible accuracy of the information in consumer reports and
to comply with reinvestigation requirements when inaccuracies are brought to their attention
by a consumer. She seeks actual and statutory damages, punitive damages, attorneys' fees,
and costs.
Plaintiff has moved to amend her complaint to add a claim challenging what she
describes as a "litigation lock." [ECF No. 61.] She submitted a form Second Amended
Complaint ("SAC"), incorporating by reference allegations in her original complaint and First

SCP-16
1 New York's Fair Credit Reporting Act substantially mirrors the federal Fair Credit Reporting Act.

1

Case l:18-cv-06210-JSR-KHP

Document 84 Filed 04/17/19 Page 2 of 9

Amended Complaint. The SAC asserts the following claims: (1) willful violations of the FCRA
and New York's FCRA by failing to follow reasonable procedures to assure the maximum
possible accuracy of the information in her consumer report and failing to comply with
reinvestigation requirements upon being notified of inaccuracies in the same; (2) negligent
violations of the FCRA and New York's FCRA by failing to follow reasonable procedures to
assure maximum possible accuracy of the information in her consumer report and failing to
comply with reinvestigation requirements upon being notified of inaccuracies in her consumer
report; (3) willful violation of the FCRA by placing a "litigation lock" on her credit information or
taking "off line" the same after she commenced litigation; (4) retaliation under the FCRA by
placing a "litigation lock" on her credit information or taking "off line" the same after she
commenced litigation; and (5) intentional infliction of emotional distress. After submitting the
proposed SAC, Plaintiff submitted a proposed Third Amended Complaint which she prepared
with the assistance of the New York Legal Assistance Group, a clinic for pro se litigants in this
District.2 [ECF No. 68, Exh. C] The TAC is laid out in a more conventional way than the SAC but
essentially reiterates the same claims under the FCRA asserted in the SAC; however, the TAC
omits the claims under the New York FCRA and the claim for intentional infliction of emotional

2 It includes the following alleged violations of the FCRA: (1) willful failure to conduct an investigation with respect
to disputed information in Plaintiff's credit report; (2) negligent failure to conduct an investigation with respect to
disputed information in Plaintiff's credit report; (3) willful failure to follow reasonable procedures to assure
maximum possible accuracy of Plaintiff's credit report; (4) negligent failure to follow reasonable procedures to
assure maximum possible accuracy of Plaintiff's credit report; (5) willful failure to conduct a reasonable
investigation and remove inaccurate information after receive actual notice of inaccurate information; and (6)
negligent failure to conduct a reasonable investigation and remove inaccurate information after receive actual
notice of inaccurate information. The TAC includes allegations that Defendants harassed Plaintiff by "freezing" or
"locking" her credit report after initiating litigation, preventing her from accessing her credit report, which
constituted a further violation of the law.

SCP-17

2

Case l:18-cv-06210-JSR-KHP Document 84 Filed 04/17/19 Page 3 of 9

distress. For this reason this Court directed Defendants to respond to the SAC because it
contained more comprehensive claims.
DISCUSSION
1. Legal Standard Applicable to Motion
Under Rule 15(a) of the Federal Rules of Civil Procedure, "a party may amend its
pleading once as a matter of course within ... 21 days after serving it, or... if the pleading is
one to which a responsive pleading is required, 21 days after service of a responsive pleading or
21 days after service of a motion under Rule 12(b), (e), or (f), whichever is earlier." Fed. R. Civ.
P. 15(a)(1). "In all other cases, a party may amend its pleading only with the opposing party's
written consent or the court's leave. The court should freely give leave when justice so
requires." Fed. R. Civ. P. 15(a)(2). The Second Circuit has stated that "[tjhis permissive standard
is consistent with our strong preference for resolving disputes on the merits." Williams v.
Citigroup Inc., 659 F.3d 208, 212-13 (2d Cir. 2011) (internal quotations and citation omitted).
Leave to amend should be given "absent evidence of undue delay, bad faith or dilatory
motive on the part of the movant, undue prejudice to the opposing party, or futility." Monahan
v. N.Y.C. Dep't of Corr., 214 F.3d 275, 283 (2d Cir. 2000). Proposed amendments are futile when
they would fail to "state a claim under Rule 12(b)(6) of the Federal Rules of Civil Procedure."
IBEW Local Union No, 58 Pension Trust Fund & Annuity Fund v. Royal Bank of Scotland Grp,,
PLC, 783 F.3d 383, 389 (2d Cir. 2015) (quoting Panther Partners Inc. v. Ikanos Commc'ns, Inc.,
681 F.3d 114,119 (2d Cir. 2012)). As such, the determination of futility is subject to the same
standard as a motion to dismiss under Rule 12(b)(6) of the Federal Rules of Civil Procedure. Id.
Thus, "[futility is generally adjudicated without resort to any outside evidence," and the Court

3

SC P-18

Case l:18-cv-06210-JSR-KHP Document 84 Filed 04/17/19 Page 4 of 9

accepts the factual allegations pled as true. Wingate v. Gives, No. 05-cv-1872 (LAK) (DF), 2009
WL 424359, at *5 (S.D.N.Y. Feb. 13, 2009) (citing Nettis v. Levitt, 241 F.3d 186,194, n.4 (2d Cir.

2001)).
Defendant Equifax Information Services LLC ("Equifax") argues that Plaintiff failed to
follow prior court orders concerning her proposed amendment and therefore Rule 16(b), rather
than Rule 15(a), should be the governing standard here. Under Rule 16(b) of the Federal Rules
of Civil Procedure, if a Court has set a deadline for amendments, a motion to amend filed after
the deadline may only be granted upon a showing of "good cause" for the delay. See Parker v.
Columbia Pictures Indus., 204 F.3d 326, 340 (2d Cir. 2000). The determination of whether
"good cause" exists under Rule 16(b) largely turns on the diligence of the moving party. Id.;
Holmes v. Grubman, 568 F.3d 329, 335 (2d Cir. 2009); see also Perfect Pearl Co., Inc. v. Majestic
Pearl & Stone, Inc., 889 F. Supp. 2d 453, 457 (S.D.N.Y. 2012) (to show good cause, moving party
must demonstrate that "despite its having exercised diligence, the applicable deadline could
not have been reasonably met") (citation omitted).
While it is true that Plaintiff missed deadlines, she has been in constant communication
with the Court and Defendants about her claims. Further, Plaintiff alerted both the Court and
Defendants of her complaint about what she calls a "litigation lock" on her credit report since
early on in the case. [See, e.g., ECF No. 30.] This Court finds that any delays and mistakes in
filing have been due to Plaintiffs pro se status and failure to understand the procedural rules of
the Court. Accordingly, the Court will apply the standard under Rule 15(a).
2. Intentional Infliction of Emotional Distress

SCP-19
4

Case l:18-cv-06210-JSR-KHP

Document 84 Filed 04/17/19 Page 5 of 9

Plaintiff purports to assert a new claim for intentional infliction of emotional distress.
Defendants oppose the addition of this claim based on futility. Under New York law, to
maintain a claim for intentional infliction of emotional distress, a plaintiff must show: "(1)
extreme and outrageous conduct; (2) intent to cause, or reckless disregard of a substantial
probability of causing, severe emotional distress; (3) a causal connection between the conduct
and the injury; and (4) severe emotional distress." Conboy v. AT&T Corp., 241 F.3d 242, 258 (2d
Cir. 2001) (quoting Stuto v. Fleishman, 164 F.3d 820, 827 (2d Cir.1999)). This is a very high
standard and difficult to meet. Howell v. New York Post, 81 N.Y.2d 115,122 (1993). Indeed, the
conduct must be so outrageous in nature as to go beyond all possible bounds of decency and
utterly intolerable in a civilized society. Id.; see also Crawford v. Recovery Partners, 12-cv-8520,
2014 WL 1695239, at *5 (S.D.N.Y. Apr. 28, 2014). Other judges in this Circuit have dismissed
allegations of worse conduct than here. Grimes v. Fremont Gen. Corp., 933 F. Supp. 2d 584, 612
(S.D.N.Y. 2013) (noting that allegations of threats of foreclosure, reporting to credit reporting
agencies, and "reprehensible" attempts to collect a debt were insufficient to establish an
intentional infliction of emotional distress claim); Calizaire v. Mortg. Elec. Registration Sys., Inc.,
No. 14-cv-1542, 2017 WL 895741, at *8 (E.D.N.Y. Mar. 6, 2017) (finding allegations "that
Deutsch Bank has knowingly initiated foreclosure proceedings without the right to do so....
does not constitute the 'outrageous conduct' necessary to support an [international infliction of
emotional distress] claim.").
In her reply, Plaintiff states that she had previously erroneously plead a cause of action
for intentional infliction of emotion distress when she meant to plead negligent infliction of
emotional distress. [ECF No. 82.] Under New York law, to maintain a claim for negligent

SCP-20
5

Case l:18-cv-06210-JSR-KHP

Document 84 Filed 04/17/19 Page 6 of 9

infliction of emotional harm, the plaintiff must proceed under either (1) the "bystander theory"
or (2) the "direct duty theory." Werner v. Selene Fin., LLC, No. 17-CV-06514 (NSR), 2019 WL
1316465, at *11 (S.D.N.Y. Mar. 22, 2019) (citing Mortise v. United States, 102 F.3d 693, 696 (2d
Gir. 1996)). The "bystander theory" requires a plaintiff to observe the serious injury or death of
a member of their family due to the defendant's conduct. Id. Under the "direct duty theory," a
plaintiff must suffer an emotional injury due to a breach of duty which unreasonably
endangered their physical safety, id. Both are inapplicable here. New York courts have also
recognized the cause of action in special circumstances where there is "an especial likelihood of
genuine and serious mental distress." Baker v. Dorfman, 239 F.3d 415, 421 (2d Cir. 2000)
(citation omitted); see, e.g., Carney v. Bos. Mkt., No. 18 CIV. 713 (LGS), 2018 WL 6698444, at *3
(S.D.N.Y. Dec. 20, 2018) ("These special circumstances include, for example, being negligently
misinformed by a hospital of the death of a parent,... a negligent positive result on an HIV
test,... or mishandling the remains of a loved one resulting in the need for cremation due to
the passage of time.") (internal citations omitted). Such special circumstances also do not apply
in the instant case.
None of the facts pled in any of Plaintiff's pleadings or proposed pleadings remotely
approach meeting the standard for stating a claim of intentional or negligent infliction of
emotional distress. Accordingly, I respectfully recommend that Plaintiffs motion be denied
insofar as it seeks to add a claim of intentional or negligent infliction of emotional distress as
such a claim would be futile.
3. Retaliation Under the Fair Credit Reporting Act

SCP-21
6

Case I:18‘cv-06210-JSR-KHP

Document 84

Filed 04/17/19 Page 7 of 9

The "new" claim under the FCRA and New York FCRA concern Defendants' alleged
retaliation against Plaintiff in response to her threatening and filing suit. Plaintiff has identified
the retaliation as Defendants placing a "litigation lock" on her Credit report after she filed suit.
In prior communications with the Court, she has pointed to the case of Spector v. Equifax Info.
Servs., 338 F. Supp. 2d 373, 389 (D. Conn. 2004) as supporting such a theory. Defendant
Equifax argues that permitting Plaintiff to file a retaliation claim under the FCRA would be futile
because no such cause of action exists. [ECF No.73 at 6-8.]
The FCRA contains two provisions relating to civil liability. Section 1681(n) sets forth the
standard and relief available for willful violations of the law. Section 1681(o) sets forth the
standard and relief available for negligent violations of the law. Nothing in the statute provides
a claim for retaliation. Nor has Plaintiff provided the Court with any legal authority for finding
that such a claim exists under the FCRA.
The gravamen of Plaintiffs claims have consistently concerned Defendants alleged
failure to follow reasonable procedure to assure maximum possible accuracy of information in
her credit report as required by Section 1681e(b) of the FCRA and alleged failure to comply with
the rules concerning reinvestigations of disputed information set forth in Section 1681i of the
FCRA. This Court construes Section 1681i as sufficiently broad to include Plaintiffs allegations
concerning a "litigation lock" insofar as such a procedure could be argued to be an
unreasonable procedure in the conduct of a reinvestigation. Indeed, when assisted by NYLAG,
NYLAG fashioned the claim as falling under Section 1681i. See TAC.

SCP-22
7

Case l:18-cv-06210-JSR-KHP

Document 84 Filed 04/17/19 Page 8 of 9

For the reasons set forth above, I respectfully recommend that Plaintiff's motion be
denied insofar as it seeks to add an independent claim for retaliation under the FCRA as such a
claim would be futile.
4. Remaining Claims Under the Fair Credit Reporting Act and New York Law
Both Defendants argue that Plaintiff's remaining claims for willful and negligent
violations of Sections 1681e(b) and 1681i of the FCRA and the equivalent provisions of the New
York FCRA are without merit and that amendment should not be permitted based on futility.
However, Defendants' arguments go to the merits of these claims. Therefore, it is
inappropriate to consider them at this stage of the litigation. These claims are not new—they
have been asserted since the beginning of this litigation. Thus, they remain in the litigation and
will be addressed when Defendants file their motion for summary judgment.
CONCLUSION
For the reasons set forth above, I respectfully recommend that Plaintiffs motion to
amend be DENIED insofar as she seeks to add an independent Claim of retaliation under the
FCRA and a claim of intentional or negligent infliction of emotional distress. Plaintiff's motion is
GRANTED insofar as the SAC will serve as the operative pleading except insofar as the claims of
retaliation and intentional or negligent infliction of emotion distress are excised therefrom.
No further amendments to the pleadings shall be permitted. The parties are reminded
that all discovery must be completed by May 31, 2019 and that summary judgment motions are
due June 14, 2019.

The Plaintiff shall have seventeen days from the service of this Report and
Recommendation to file written objections pursuant to 28 U.S.C. § 636(b)(1) and Rule 72(b)
of the Federal Rules of Civil Procedure. See also Fed. R. Civ. P. 6(a), (d) (adding three

SC P-2 3

8

Case l:18-cv-06210-JSR-KHP

Document 84 Filed 04/17/19 Page 9 of 9

additional days only when service is made under Fed. R. Civ. P. 5(b)(2)(C) (mail), (D) (leaving
with the clerk), or (F) (other means consented to by the parties)). Defendants shall have
fourteen days from the service of this Report and Recommendation to file written
objections pursuant to 28 U.S.C. § 636(b)(1) and Rule 72(b) of the Federal Rules of Civil
Procedure.

If Defendants file written objections to this Report and Recommendation, the
Plaintiff may respond to Defendants' objections within seventeen days after being served
with a copy. Fed. R. Civ. P. 72(b)(2). Alternatively, if Plaintiff files written objections,
Defendants may respond to such objections within fourteen days after being served with a
copy. Fed. R. Civ. P. 72(b)(2); see also Fed. R. Civ. P. 6(a), (d). Such objections shall be filed
with the Clerk of the Court, with courtesy copies delivered to the chambers of the
Honorable Jed S. Rakoff at the United States Courthouse, 500 Pearl Street, New York, New
York 10007, and to any opposing parties. See 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 6(a), 6(d),
72(b). Any requests for an extension of time for filing objections must be addressed to
Judge Rakoff. The failure to file these timely objections will result in a waiver of those
objections for purposes of appeal. See 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 6(a), 6(d), 72(b);
Thomas v. Am, 474 U.S. 140 (1985).

Respectfully submitted,
Dated: April 17, 2019
New York, New York

Katharine H. Parker
U.S. Magistrate Judge, S.D.N.Y.

SCP-24
9

Case l:18-cv-06210-JSR-KHP Document 124 Filed 05/20/19 Page 1 of 9
USDC SDNY
DOCUMENT
ELECTRONICALLY FILED

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

IX>C #:_____ _y /
DATE FILED: l / 3P/tl

SHERRI COHEN,
Plaintiff,

18-CV-6210 (JSR) (KHP)

-against-

MEMORANDUM ORDER

EQUIFAX INFORMATION SERVICES
LLC and TRANSUNION LLC,
Defendants.
L
JED S. RAKOFF, U.S.D.J.
In this action, plaintiff Sherri Cohen, pro se, alleges that
defendants Equifax Information Services LLC and Transunion LLC are
in violation of the federal Fair Credit Reporting Act ("FCRA") and
its New York analogue. On March 18, 2019, plaintiff moved to file
a Second Amended Complaint. See ECF No. 61. As relevant here, the
Second Amended Complaint

sought

to add claims

for

intentional

infliction of emotional distress and retaliation. Magistrate Judge
Parker, to whom this action has been referred for pretrial matters,
issued a Report and Recommendation recommending that the motion be
denied insofar as the Second Amended Complaint sought to add these
causes of action.

See Opinion, Report and Recommendation 8, ECF

No. 84. Judge Parker concluded that the amendment would be futile
insofar as the proposed causes of action failed to state claims
for relief.

Plaintiff

timely filed objections.

See Plaintiff's

Objection, ECF Nos. 97, 104.

SCP-25
i

Case l:18-cv-06210-JSR-KHP Document 124 Filed 05/20/19 Page 2 of 9

Having reviewed the underlying papers de novo, and applying
a liberal reading to plaintiff's papers in light of her pro se
status/

the Court is in complete agreement with Judge Parker's

thorough and well-reasoned analysis.

The Court therefore adopts

the reasoning of her Report and Recommendation by reference.
In objecting to Judge Parker's rejection of her claim for
intentional infliction of emotional distress, plaintiff cites to
cases where courts have upheld awards of damages for emotional
distress as a result of FRCA violations. Plaintiff has conflated
the

availability

of

damages

for

emotional

distress

with

the

independent tort of intentional infliction of emotional distress
- although, in fairness, the nomenclature is extremely confusing.
In brief,

when a defendant

is

found liable,

the plaintiff may

recover actual damages, which may, in an appropriate case, include
damages

for

emotional

distress.

"Intentional

emotional distress," on the other hand,

infliction

of

is an independent tort

that renders a defendant liable for especially outrageous conduct.
As Judge Parker explained, plaintiff's allegations do not make out
a cause of action for intentional
emotional

distress.

However,

(or negligent)

nothing

in

Judge

infliction of

Parker's

ruling

prevents plaintiff from seeking to prove and recover damages for
emotional distress at trial,

if she establishes that defendants

are liable for one or more of her claims under the FCRA.

SCP-26
2

Case l:18-cv-06210-JSR-KHP Document 124 Filed 05/20/19 Page 3 of 9

As for the claim of retaliation, plaintiff agrees with Judge
Parker's ruling that the FCRA does not provide for such a cause of
action. However, plaintiff now seeks leave to amend her complaint
to

add six new claims

related to defendants'

imposition of a

"litigation lock" on plaintiff's credit score in response to this
litigation. Specifically, plaintiff wishes to add (1) a claim under
the Racketeer Influenced and Corrupt Organization Act; (2) a claim
for a violation of New York's General Business Law § 349;
claim for conversion;
(5)

(4)

(3) a

a claim for breach of fiduciary duty;

a claim for civil conspiracy; and

(6)

a claim for tortious

interference.
This

request,

objection to

Judge

procedurally

proper.

raised
Parker's

for

the

Report

Normally,

"it

first

time

in

plaintiff's

and Recommendation,

is not

is

that

established

law

a

district judge will not consider new arguments raised in objections
to a magistrate judge's report and recommendation that could have
been raised before the magistrate but were not." Hubbard v. Kelley,
752 F. Supp. 2d 311, 313 (W.D.N.Y. 2009)

(quoting Illis v. Artus,

No. 06-CV-3077, 2009 WL 2730870, at *1 (E.D.N.Y. Aug. 28, 2009)).
However, requiring plaintiff to first present these arguments to
Judge Parker would, under the circumstances, result in a needless
duplication

of

effort.

In

the

interest

of

judicial

economy,

therefore, the Court has considered plaintiff's motion to amend to
add these claims de novo.

SCP-27
3

Case l:18-cv-06210-JSR-KHP Document 124 Filed 05/20/19 Page 4 of 9

The

Federal

Rules of Civil

Procedure direct that

a court

"should freely give leave" to amend "when justice so requires."
Fed. R. Civ. P. 15(a)(2). This "permissive standard" reflects this
Circuit's

"strong

preference

for

resolving

disputes

on

the

merits." Williams v. Citigroup Inc., 659 F.3d 208, 212-13 (2d Cir.
2011)

(quoting New York v Green, 420 F.3d 99, 104 (2d Cir. 2005)).

Leave to amend should be granted "absent evidence of undue delay,
bad faith or dilatory motive on the part of the movant,

undue

prejudice to the opposing party, or futility." Monahan v. New York.
City Dept, of Corrections, 214 F.3d 275, 283 (2d Cir. 2000).
Here, plaintiff's motion must be denied on the ground of undue
delay. This case is on the verge of summary judgment, and discovery
is

scheduled

to

close

later

this

month.

Plaintiff's

only

explanation for why it took her so long to propose these amendments
is that, when she initiated her lawsuit, she did not know how the
defendants would use the litigation lock. Plaintiff's Objection 6.
But this lawsuit was removed to federal court in July of 2018, and
plaintiff first expressed a desire to amend her complaint to add
claims relating to the litigation lock no later than November 15,
2018.

See

Order

dated

November

15,

2018

at

2,

ECF

No.

28.

Additionally, Judge Parker set a deadline of November 21, 2018
nearly six months before plaintiff proposed the amendments now at
issue - for the complaint to be amended to encompass this claim.
Id. The Court has due regard for the difficulties plaintiff may
4

SCP-28

Case l:l8-cv-06210-JSR-KHP Document 124 Filed 05/20/19 Page 5 of 9

have in finding the proper legal theory to encompass her claims.
But plaintiff has not been idle during this time; she has been an
active, indeed vigorous, participant in this litigation. The Court
can see no reason why plaintiff could not assert these claims
earlier. Even making all reasonable allowances for plaintiff/s pro
se status, this extraordinary delay is unacceptable.
Moreover,

permitting

these

belated

amendments

is

not

necessary to resolve this issue on the merits. Plaintiff's Second
Amended Complaint includes a claim for willful violation of the
FCRA based on the litigation lock procedures,
recommended permitting that amendment
Court

is adopting).

plaintiff

will

and Judge Parker

(which recommendation the

See Report and Recommendation 2,

have

a

full

opportunity

to

litigate

8.

Thus,

whether

defendants' use of the litigation lock gave rise to liability and,
if so, to prove the extent of her resulting damages.
Indeed, not only is plaintiff's latest amendment unnecessary
to the

resolution of

her claims,

it would

likely cause great

confusion and delay. Plaintiff has asserted a veritable buckshot
of claims all aimed at proving the same thing: that defendants use
the litigation lock to pressure litigants,
legitimate

purpose.

Offering

the

jury

rather than for any

seven

different

legal

theories aimed at proving the same misconduct would be, to put it

SCP-29
5

Case l:18-cv-06210-JSR-KHP Document 124 Filed 05/20/19 Page 6 of 9

mildly,

excessive.1 Accordingly, plaintiff's motion to amend her

complaint to include the six claims raised for the first time in
her objections

to

Judge

Parker's

Report

and Recommendation is

denied.
Finally, plaintiff has also filed a letter asking the Court
to "personally review" the validity of her FCRA and RICO claims.
Motion for Judge Rakoff's Personal Review and Ruling 1, ECF No.
115.

This

Court

reviews

de

novo

any

potentially

dispositive

motions. See 28 U.S.C. § 636(b) (1) (B) . As to any non-dispositive
matters,

plaintiff is free to appeal any rulings she feels are

"clearly erroneous or contrary to law," 28 U.S.C. § 636(b)(1)(A)
as

indeed plaintiff has already done once,

Plaintiff

should rest assured that

this

see ECF No.

case will

94.

receive the

Court's full and undiluted attention.2
For

the

reasons

given

above,

plaintiff's

undue

delay

in

proposing the RICO amendment justifies denial of her motion to
amend.

However,

because it

is obviously important to plaintiff

1 Additionally, while the Court's present ruling is not premised on a
finding of futility, the Court is extremely doubtful that most, if any,
of plaintiff's belatedly-asserted theories of liability state a viable
claim for relief.
2 The Court would be remiss, however, if it did not note that Magistrate
Judge Parker is an exceptionally thoughtful and scrutinizing jurist. To
the extent plaintiff's motion reflects a concern that Judge Parker's
rulings are anything less than the product of careful legal reasoning,
therefore, that concern is totally misplaced. As the Court has already
noted, plaintiff should consider herself fortunate that such a capable
judge is handling the pretrial matters in this case. See Order dated
December 21, 2018, ECF No. 50.
6

SCP-30

Case l:18-cv-06210-JSR-KHP Document 124 Filed 05/20/19 Page 7 of 9

that the Court address the viability of her claim, the Court has
also undertaken a de novo review of whether amendment to add this
claim would be

futile.

The Court

concludes

that

it would,

as

plaintiff has not stated a claim for relief under RICO.
"To establish a RICO claim,

a plaintiff must show:

violation of the RICO statute, 18 U.S.C. § 1962;
business or property; and

(3)

(1)

a

(2) an injury to

that the injury was caused by the

violation of Section 1962." DeFalco v. Bernas, 244 F.3d 286, 305
(2d

Cir.

2001)

(internal

quotation

marks

omitted)

(quoting

Pinnacle Consultants, Ltd, v. Leucadia Nat'l Corp., 101 F.3d 900,
904

(2d Cir.

1962(c)"

1996)).

"To establish a violation of 18 U.S.C.

§

the only substantive subsection that might apply to

plaintiff's claims - "a plaintiff must show (1) conduct (2) of an
enterprise
Id.

at

(3)

306

through a pattern

(4)

of racketeering activity."

(internal quotation marks omitted)

S.P.R.L. v.

Imrex Co.,

473 U.S.

479,

496

(quoting Sedima,

(1985)).

activity" is defined by 18 U.S.C. § 1961(1)

"Racketeering

to include a broad

array of illegal conduct, of which the only example relevant here
is extortion.
Plaintiff's only asserted basis for RICO liability is that
defendants put a "litigation lock" on her credit score after she
commenced

these

proceedings

accessing her credit score.
claims

that

defendants

use

which

prevents

her

from

freely

Plaintiff's Objection 3-5. Plaintiff
these
7

litigation

locks

to

coerce

SCP-31

Case l:18-cv-06210-JSR-KHP Document 124 Filed 05/20/19 Page 8 of 9

plaintiffs to settle their lawsuits. There are several problems
with formulating this as a RICO violation. First, "[ujnder section
1962(c), a defendant and the enterprise must be distinct." DeFalco,
244 F. 3d at 307.
that

is

distinct

Plaintiff has not identified any "enterprise"
from Transunion

LLC

and

Equifax

Information

Services, LLC, the only defendants.
Second, plaintiff has not alleged any facts in support of her
claim that the litigation lock is imposed to bully consumers into
settling. A bare allegation of improper intent is not sufficient
to survive a motion to dismiss. And plaintiff's allegation of a
"tacit" conspiracy between defendants, Plaintiff's Objection 5, is
entirely speculative.
Third,

even

if

plaintiff

had

sufficiently

pleaded

that

defendants had a wrongful motivation, the litigation lock is not
extortion. Extortion usually requires obtaining of property from
another by threats of violence. E.g., 18 U.S.C. § 1951(b) (2). Even
assuming without deciding that, by inducing plaintiff to settle or
drop her case,

defendants thereby attempted to obtain property

from her, a litigation lock is not a threat of force or violence
against person or property. Plaintiff characterizes the practice
as "unfair and unreasonable," Plaintiff's Objection 4, and it may
well be, but not every unfair or unreasonable business practice is
racketeering. Indeed, plaintiff compares the litigation lock to "a
grocery chain refusing to sell food to someone who has sued the
8

SCP-32

Case l:18-cv-06210-JSR-KHP Document 124 Filed 05/20/19 Page 9 of 9

chain." Plaintiff's Objection 4. But such a course of action would
be perfectly legal.
In addition to being untimely,

then,

plaintiff's proposed

RICO claim does not state a claim for relief. For that additional
reason,

plaintiff's amendment would be futile and her motion to

amend is denied.
In

summary:

The

Court

adopts

Judge

Parker's

Report

and

Recommendation in full. Plaintiff's motion to amend her complaint
is denied insofar as she seeks to add an independent claim of
retaliation under the FCRA,

a claim of intentional or negligent

infliction of emotional distress,

a claim under RICO, or any of

the six New York state law claims asserted for the first time in
plaintiff's

Objection

to

the

Report

and

Recommendation.

Plaintiff's motion is granted insofar as remainder of the Second
Amended Complaint will serve as the operative pleading. Plaintiff
will be permitted to litigate the issue of the "litigation lock"
insofar as it is relevant to establishing the defendants' liability
for a willful violation of the FCRA. No further amendments to the
pleadings will be permitted.
The Clerk of the Court is directed to close docket entries 61
and 115.
SO ORDERED.
Dated:

New York, NY
RAKOFF, U. S . D. J.

May Q_, 2019
9

SCP-33

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 1 o 24
I’SDCSpNY ■
DOCUMENT
ELECTRONICALLY FILED

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

;

DOC #:___L.

ft I

DATr " rr>:

SHERRI COHEN,
Plaintiff,

18-CV-6210 (JSR)

-against-

MEMORANDUM AND ORDER

EQUIFAX INFORMATION SERVICES,
LLC, and TRANS UNION, LLC,
Defendants.
JED S. RAKOFF, U.S.D.J.
' Plaintiff Sherri Cohen, pro se, filed this suit against
-»

defendants Equifax Information Services, LLC and Trans Union,
LLC for allegedly maintaining inaccurate information in her
i

.

%

credit reports and failing to adequately investigate when-she
brought the inaccuracies to defendants' attention. Plaintiff and
defendants have each moved for summary judgment.
In light of plaintiff's pro se status, the Court has viewed
her submissions with a liberal eye. Nonetheless, in opposing
defendants' motions for summary judgment, it is plaintiff's
burden, even pro se, to point to admissible evidence in the
record that, were the case to proceed to trial, could reasonably
result in a jury verdict in her favor. Plaintiff has not done
so. Accordingly, defendants' motions for summary judgment are
granted and plaintiff's complaint is dismissed.
I.

Undisputed Facts

SCP-34
i

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 2 of 24

Defendants Equifax Information Services, LLC_ ("Equifax") and
Trans Union, LLC ("Trans Union") are credit reporting agencies as
defined by the Fair Credit Reporting Act ("FCRA"). As such, they
gather information about consumers from various sources which they
then use to generate consumer credit files and consumer reports.
Between January 2016 and October 2017, Equifax received seventeen
disputes

submitted

on

plaintiff's

behalf

by

a

credit

repair

organization, CreditRepair.com. Equifax SMF1 1 42; PI. Resp. SMF
re: Equifax SI 42.2 Plaintiff admitted at her deposition that she
was not aware of the content of the disputes that CreditRepair.com
submitted on her behalf and that,

once she signed up for the

service, the company simply generated disputes without consulting
or notifying her. See Equifax SMF Exh. B at 219^-21, ECF No. 1532.
Similarly,

between May 20,

2016 and March 17,

2017,

Trans

Union received some seven disputes made on behalf of plaintiff by
CreditRepair.com. Trans Union SMF SI SI 1-60; PI. Resp. SMF re: Trans

1 "SMF" refers to a party's Statement of Material Facts submitted in
support of that party's motion for summary judgment. A responsive or
supplemental Statement of Material Facts submitted in opposition to
another party's motion is designated "Resp. SMF" or "Supp. SMF."
2 Plaintiff claims for the first time in a reply brief to have also
personally filed a dispute with Equifax on August 16, 2016. Pi. Reply
to Equifax Resp. 5-6, ECF No. 192. However, plaintiff supports this
proposition only with a dispute letter she filed with a different credit
reporting agency on this date. Id. Exh. D. She thus proffers no relevant
evidence of this dispute.

SCP-35
2

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 3 of 24
j

Union

M

1-60.

In

re.investigation.

Id-

response

to

each,

Trans

During her deposition,

Union

initiated

a

plaintiff admitted

that she could not remember what purported inaccuracies prompted
any

of

these

disputes,

nor

could

she

recall

whether

CreditRepair.com consulted her or otherwise involved her in the
process. E.q.,

Poling Decl. Exh. A at 73-74, 76,

88-92, ECF No.

160-1; see also id. at 95 ("[T]his is not m[y] doing. I guess this
is a computerized program that did that.").3
On November of 2017, Trans Union and Equifax each received
identical letters from an attorney, Kristin White, Esq., who was
writing on plaintiff's behalf. Equifax SMF f 46; PI. Resp. SMF
re: Equifax S[ 46; Trans Union SMF 5 61; PI. Resp. SMF re: Trans
Union I 61. In each letter, White claimed that Trans Union's
credit report for plaintiff Cohen erroneously reported a "charge
off" in the amount of $2,599, as well as showing an inaccurate
utilization rate and credit inquiries more than one year old.
See PI. Resp. re: Equifax Exh. C, ECF No. 188; PI. Resp. re:
Trans Union Exh. D ("White Letter"), ECF No. 186. Subsequently,
in February of 2018, Equifax and Trans Union each received
identical dispute letters from plaintiff herself claiming that

3 Trans Union also received, on November 16, 2016, a request from the
Consumer Financial Protection Bureau that plaintiff's credit score be
recalculated. Trans Union SMF i 30; Pi. Resp. SMF re: Trans Union 1 30.
Because that request did not claim that any item of information in
plaintiff's file was inaccurate, it is not relevant to the instant suit.
!

3

SCP-36

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 4 of 24

the utilization rate for unspecified accounts on her credit
report was still inaccurately high. Trans Union SMF 1 66; PI.
Resp. SMF re: Trans Union 2 66; PI. Resp. re: Equifax Exh. D,
ECF No. 188; PI. Resp. re: Trans Union Exh. N, ECF No. 186.
On July 9, 2018, plaintiff initiated this suit against
Trans Union, Equifax, and a third such company, Experian
Information Solutions, Inc.4 Following motion practice and
amendment, the operative pleading (the Second Amended Complaint)
asserts three causes of action under the Fair Credit Reporting
Act against both Trans Union and Equifax: negligent failure to
follow reasonable procedures to ensure accuracy of consumer
reports, in violation of 15 U.S.C. § 1681e(b); negligent failure
to conduct a reasonable reinvestigation, in violation of 15
U.S.C. § 1681i(a)(1)(A); and willful violation of the foregoing
subsections. See Second Am. Compl., ECF No. 61-1; Opinion,
Report & Recommendation 8, ECF No. 84, adopted, ECF No. 124.5
4 Experian settled with plaintiff on September 25, 2018. See Notice of
Settlement, ECF No. 20.
5 Plaintiff's original complaint also asserted claims under New York's
Fair Credit Reporting Act, N.Y.G.B.L. § 380. See Compl. 21 68, 71. Her
Second Amended Complaint incorporated by reference the federal FCRA
claims from her original complaint, see Second Amended Complaint 12 109,
128, but not the New York analogue. Additionally, plaintiff's proposed
which she filed without permission (which
Third Amended Complaint
likely would have been denied) and which was not used as the operative
pleading on these motions - also omitted the New York FCRA. Moreover,
no party has referenced the New York causes of action in the summary
judgment briefing. From this, it is clear that plaintiff has abandoned
her claims arising under the New York FCRA, though, even if that were
not the case, such claims would not survive summary judgment. The same
is true of the purported Third Amended Complaint.
4

SCP-37

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 5 of 24

All parties have now moved for summary judgment. ECF Nos.
150, 153, 157. As discussed in more detail below,-the Court
concludes that, even taking all evidence in the light most
favorable to plaintiff and drawing all reasonable inferences in
her favor, plaintiff has not adduced any admissible evidence
sufficient to support a reasonable jury's finding1 that either
defendant negligently failed to maintain adequate procedures for
ensuring the accuracy of plaintiff's information or that either
defendant negligently failed to conduct a reasonable
reinvestigation in response to plaintiff's disputes. Defendants'
motions for summary judgment are therefore granted. Plaintiff's
motion for summary judgment is correspondingly denied.
II.

Discussion
A.

Legal Standard

"Summary judgment is proper when, after drawing all
reasonable inferences in favor of a non-movant, no reasonable
trier of fact could find in favor of that party." Heublein, Inc.
v. United States, 996 F.2d 1455, 1461 (2d Cir. 1993); see also
Fed., R. Civ. P. 56(a)

("The court shall grant summary judgment

if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter
of law."). "A fact is 'material' for these purposes if it 'might
affect the outcome of the suit under the governing law.

t ft

Holtz

v. Rockefeller & Co., Inc., 258 F.3d 62, 69 (2d Cir. 2001)
5

SCP-38

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 6 of 24

(quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986)). "An issue of fact is 'genuine' if 'the evidence is such
that a reasonable jury could return a verdict for the nonmoving
party.

r tr

Id. "Genuine issues of fact are not created by

conclusory allegations." Heublein, 996 F.2d at 1461.
"Rule 56(c) mandates the entry of summary judgment . .
against a party who fails to make a showing sufficient to
establish the existence of an element essential to that party's
case, and on which that party will bear the burden of proof at
trial." Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986). To
avoid summary judgment, "[t]here must be more than a 'scintilla
of evidence' in the non-movant's favor; there must be evidence
upon which a fact-finder could reasonably find for the non­
movant. Heublein, 996 F.2d at 1461 (quoting Anderson, 477 U.S.
at 252) .
"Because [plaintiff] is a pro se litigant,"•the Court
"read[s]

[her] supporting papers liberally, and will interpret

them to raise the strongest arguments that they suggest." Burgos
v. Hopkins, 14 F.3d 787, 790 (2d Cir. 1994).6 Still, while pro se
litigants are entitled to "reasonable allowances," they are not
"exempt[ed]

. .

. from compliance with relevant^rules of
!

6 The Court rejects defendants' arguments that, because plaintiff
received assistance from lawyers in drafting certain documents, her
papers should not be construed liberally. The record is unclear about
the extent of the assistance received. However, even construed liberally,
plaintiff's submissions are not sufficient to defeat summary judgment.
6

SCP-39

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 7 of 24

procedural and substantive law." Traguth v. Zuck, ,710 F.2d 90,
95 (2d Cir. 1983)

(quoting Birl v. Estelle, 660 F.2d 592, 593

(5th Cir. 1981)).
B.

Equifax Motion for Summary Judgment

Equifax moves for summary judgment on all claims against
it, arguing that plaintiff cannot show that her credit file
contained inaccurate information; that she has adduced no
competent evidence that Equifax failed to follow reasonable
procedures; that she has adduced no competent evidence that
Equifax failed to conduct a reasonable reinvestigation in
response to her disputes; and that she has adduced no competent
evidence of damages. Equifax Mem. 7-8, ECF No. 154. The Court
agrees that plaintiff has failed to meet her burden of producing
admissible evidence supporting her claim that Equifax failed to
follow reasonable procedures or to conduct reasonable
reinvestigations, and therefore does not reach the other issues.
1.

Failure to Follow Reasonable Procedures

Plaintiff's first claim is that Equifax failed to follow
"reasonable procedures" to maintain the accuracy of its
information, in violation of 15 U.S.C. § 1681e(b). "[I]n order
to succeed on a claim under § 1681e(b), a plaintiff must show
:

that:

(1) the consumer reporting agency was negligent in
that it failed to follow reasonable procedures to
ensure the accuracy of its credit report; (,2) the
7

SCP-40

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 8 of 24

consumer reporting agency reported inaccurate
information about the plaintiff; (3) the plaintiff was
injured; and (4) the consumer reporting agency's
negligence proximately caused the plaintiff's injury.
Collins v. Experian Credit Reporting Service, 494 F. Supp. 2d
127, 134-35 (D. Conn. 2007) (quoting Whelan v. Trans Union
Credit Reporting Agency, 862 F. Supp. 824, 829 (E.D.N.Y. 1994)).
Equifax claims that plaintiff's account with Applied Bank
"is the only account about which Plaintiff is suing Equifax,"
and that "Plaintiff's allegation of inaccuracy is that the
Applied Bank tradeline did not include the date qf charge off."
Equifax SMF 51 37-38. This is inaccurate. A reviqw of the
deposition testimony cited by Equifax in support of these
contentions suggests that plaintiff was providing partial or
general answers, not intentionally harrowing her legal theories
through deposition testimony. See Equifax Reply Mem. 2-3, ECF
No. 197.
Plaintiff identifies the following purported inaccuracies
in her credit report: "[w]rong addresses, dates, and telephone
number information, and misspellings of her name," "[i]naccurate
credit card and loan balance information," and "[i]naccurate
payment histories and utilization rates affecting several
accounts." Pi. Supp. SMF re: Equifax 1 1, ECF No. 188. This does
not, however, suffice to create a genuine dispute of fact,
because, for the most part, the record documents plaintiff cites

SCP-41
8

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 9 of 24

do not support these contentions. Mere contentions by a party do
not create a genuine dispute; rather, "[a]n issue of fact is
'genuine' if the evidence is such that a reasonable jury could
return a verdict for the nonmoving party." Holtz v. Rockefeller
& Co., 258 F.3d 62, 69 (2d Cir. 2001)
marks omitted)

(some internal quotation

(quoting Anderson v. Liberty Lobby, Inc., 477

U.S. 242, 248 (1986)); see also Fed. R. Civ. P. 56(c)(1)
(assertion must be supported by admissible evidence).
Plaintiff's assertion that her credit report contained
inaccurate information cites to three sources: her complaint,
her deposition, and her declaration. Her complaint, however, is
riot itself evidence; it is simply a collection of allegations. A
declaration may be sufficient "to support or oppose a motion,"
so long as it is "made on personal knowledge, set[s] out facts
that would be admissible in evidence, and show[s] that the
affiant or declarant is competent to testify on the matters
stated." Fed. R. Civ. P. 56(c)(4). Here, plaintiff simply
repeats her generalized allegation that her credit report
contained inaccuracies, with no details or elaboration. See
Cohen Decl. SI 4, PI. Exh. A, ECF No. 188. This kind of
conclusory assertion is not sufficient to create a genuine
dispute of fact.
However, plaintiff's deposition testimony does suffice to
raise a genuine dispute as to at least some facts. In her
9

SCP-42

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 10 of 24

deposition, she specifically identified certain phone numbers
and addresses listed on her credit report that belonged to her
and claimed that the remainder were not and had never been hers.
See Cohen Depo. 52-54, PI. Exh. C, ECF No. 163. The Court
concludes that plaintiff's deposition testimony is adequate to
create a genuine dispute about whether her Equifax credit report
contained inaccurate addresses.7
The remainder of plaintiff's testimony regarding supposed
inaccuracies, however, is too vague and conclusory to preclude
summary judgment. She testified, for example, that the credit
limits associated with two accounts - Comenity Capital Bank and
Discover Bank - were incorrect. Id. at 57. But with respect to
Comenity, plaintiff did not offer an affirmative statement that
the credit limit was inaccurate; rather, she simply insisted
that she "would never have a credit limit that low." Id. As for
Discover, plaintiff did claim that the listed credit limit was
incorrect, but only as of one month prior to the deposition. Id.
With respect to utilization rates, plaintiff asserted that she
"felt" that her credit score was not accurate, based on "a gut

7 Equifax represents that its credit reports do not include telephone
numbers, Equifax SMF fr 73, and plaintiff fails to adduce competent
evidence to the contrary.
10

SCP-43

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 11 of 24

feeling." Id. at 86-87. She admitted that she did.not have
evidence that her score was inaccurate. Id. at 87.8
Even drawing all reasonable inferences in favor of
plaintiff, gut feelings are not a sufficient basis to conclude
that there is a genuine dispute of fact as to the accuracy of
information about plaintiff's credit limits or utilization
rates. See Collins, 494 F. Supp. 2d at 135 (granting summary
judgment where plaintiff in FCRA case failed to "provide[] any
documentary evidence to support his claim that there was
inaccurate information in his credit report"); Tuiner v.
Experian Information Services, Inc., No. 3:16 CV 630, 2017 WL
2832738, at *3 (N.D. Ohio June 30, 2017)

("Turner offers no

• evidence suggesting these reports were inaccurate, beyond her
testimony that she did not 'recall' or 'believe' that she made
any late payments. This is not the type of 'concrete' and
'affirmative' evidence required to survive summary judgment.")
(quoting Anderson v. Liberty Lobby, 477 U.S. 242, 256-57
(1986) ) .
The parties spend much of their time debating the scope and
legal relevance of purported errors relating to an Applied Bank
account, including errors relating to a "charge off" date, the

8 Plaintiff additionally testified that her credit report contained
accounts that were not hers, but specified that those purported
inaccuracies are not at issue in this suit. Cohen Depo. 90-91, 95.
ii

SCP-44

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 12 of 24

account's utilization rate, and whether the account should have
been removed from plaintiff's credit report based on its age.
Equifax Mem. 12, ECF No. 154; PI. Mem. Opp. Equifax 5-6, EOF No.
186. Most of this is irrelevant because plaintiff- has adduced no
evidence supporting her assertion that the Applied Bank account
had any errors. Plaintiff merely cites to a letter by her own
attorney asserting these errors existed, without substantiation.
See PI. Resp. re: Equifax Exh. C, ECF No. 188. Moreover, to the
extent that plaintiff disputes Equifax's failure to include the
Applied Bank charge-off date in her credit report, "[t]he FCRA
does not specifically require a reporting agency to
affirmatively add credit data to a report." Davis v. Equifax
Info. Servs. LLC, 346 F. Supp. 2d 1164, 1172 (N.D. Ala. 2004).
i

Even as to the information about which there1 is a genuine
dispute, plaintiff has not put forth evidence sufficient to
defeat summary judgment. Plaintiff has adduced no evidence to
establish that Equifax "failed to follow reasonable procedures
to ensure the accuracy of its credit report." Col’lins, 494 F.
Supp. 2d at 134. Instead, plaintiff argues, based on her
interpretation of Guimond v. Trans Union Credit Info. Co., 45
F.3d 1329, 1333 (9th Cir. 1995), that, once a plaintiff
establishes that her report contained inaccurate information,
the burden shifts to the defendant to show that its procedures
were reasonable. PI. Mem. Supp. Mot. SJ re: Equifax 8, ECF No.

SCP-45

12
i

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 13 of 24

163. The Court disagrees. Although Guimond did refer off­
handedly to an agency "establish[ing]" the reasonableness of its
procedures, the Court does not understand that passing reference
to institute a burden-shifting framework. And, in any event,
Guimond is not binding on this Court.
Furthermore, the view elsewhere is to the contrary.
According to the D.C. Circuit, for example, "a plaintiff cannot
rest on a showing of mere inaccuracy, shifting to the defendant
the burden of proof on the reasonableness of procedures for
ensuring accuracy." Stewart v. Credit Bureau, Inc., 734 F.2d 47,
51 (D.C. Cir. 1984). Rather, "even if the information [in a
credit report] is inaccurate, a credit reporting agency is not
held strictly liable under the FCRA merely for reporting it;
rather, the consumer must show that the agency failed to follow
reasonable procedures in generating the inaccurate report."
Whelan, 862 F. Supp. at 829 (emphasis added). Therefore, "[t]o
defeat a motion for summary judgment on a § 1681e(b) claim, a
plaintiff must minimally present some evidence from which a
trier of fact can infer that the consumer reporting agency
failed to follow reasonable procedures in preparing a credit
report." Id. (emphasis added and internal quotation marks
omitted)

(quoting Stewart, 734 F.2d at 51). Plaintiff has

adduced no such evidence here. Accordingly, the Court grants

SCP-46
13

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 14 of 24

Equifax's motion for summary judgment as to plaintiff's §
1681e(b) claim.
2.

Failure to Conduct Reasonable Reinvestigation
;

Plaintiff's second claim arises under 15 U.S.C. §
1681i(a)(1)(A), which provides that when "the completeness or
accuracy of any item of information contained in a consumer's
file at a consumer reporting agency is disputed by the
consumer," the agency must "conduct a reasonable reinvestigation
to determine whether the disputed information is inaccurate,"
generally within 30 days. To establish a claim, a plaintiff must
show that "(i) the plaintiff's credit report contains inaccurate
or incomplete information; (ii) the plaintiff notified the
consumer reporting agency directly of the inaccurate or
incomplete information;

(iii) the plaintiff's dispute is not

frivolous or irrelevant; and (iv) the consumer reporting agency
failed to respond to the plaintiff's dispute with a reasonable
reinvestigation." Saenz v. Trans Union, LLC, 621 F. Supp. 2d
1074, 1082 (D. Or. 2007) .
It is undisputed that Equifax received several disputes
submitted on plaintiff's behalf. Equifax SMF 15 41-43, ECF No.
153-1. The great majority of these were submitted by
"Creditrepair.com." Id. Plaintiff admitted at her deposition
that she was not aware of the content of the disputes they made
on her behalf and that, once she signed up for the service, the
14

SCP-47

Case l:18-cv-Q6210-JSR-KHP Document 199 Filed 09/13/19 Page 15 of 24

company simply generated disputes without consulting or
notifying her. Cohen Depo. 219-21.
The Court concludes that the disputes submitted by
Creditrepair.com did not trigger Equifax's duty to reinvestigate
because plaintiff did not "directly" inform Equifax of the
dispute. At least one federal court has held that a consumer
"directly" informs a credit reporting agency only if the
consumer does so "without an intervening actor." In re Experian
Information Solution, Inc., No. CV-15-01212-PHX-GMS, 2017 WL
3559007, at *3 (D. Ariz. Aug. 17, 2017). The Court hesitates to
go that far; it would seem unreasonable to say that a consumer
did not notify a credit reporting agency if, for example, they
contacted the agency through an attorney. The Court is
confident, however, that a consumer has not "directly" contacted
a credit reporting agency when, as here, she merely signs up for
a credit repair service and then has no further involvement
with, or even knowledge of, the disputes submitted putatively on
her behalf. See Turner, 2017 WL 2832738, at *8 (concluding that
consumer did not directly notify agency of dispute submitted by
credit repair organization, where consumer "did not draft the
dispute letter, provide documentation supporting its claims,
review its accuracy, sign it, or mail it").
An additional dispute was submitted on November 15, 2017,
by an attorney retained by plaintiff, Kristin R. White. Equifax
15

SCP-48

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 16 of 24

SMF 55 46-48; see also PI. Equifax Opp. Exh. C (copy of letter).
Because the letter recites that White was retained by plaintiff
specifically to dispute certain inaccuracies, the Court
concludes that this was a sufficiently "direct" notification to
trigger a duty to reinvestigate.
Nonetheless, plaintiff has adduced no admissible evidence
that Equifax did not conduct a reasonable reinvestigation in
response to the November 15 dispute. Equifax has supplied a
declaration from one of its employees generally describing its
reinvestigation protocols. In response to a consumer dispute,
Equifax transmits an Automated Consumer Dispute Verification
form ("ACDV") to the furnisher of the disputed information.
Gobin Decl. 55 26-27, ECF No. 153-2. Data furnishers are
contractually required to conduct their own investigation upon
receipt of an ACDV. Id. 5 29. Equifax then takes action based on
the result of the data furnisher's investigation. Id. 5 30-31.
Equifax claims that it followed this procedure in response to
the November 15 dispute, and that the information was verified.
Id. 55 51-52. Plaintiff has adduced no contrary evidence,9 and so
no reasonable jury could conclude that Equifax failed to conduct
a reasonable reinvestigation. See Dickens v. Trans Union Corp.,

9 Although plaintiff argues that Equifax did not investigate some other
disputed account balances and utilization rates mentioned in the White
Letter, plaintiff fails to adduce any evidence of this claim. PI. Resp.
re: Equifax 13, ECF No. 188. Nor does she offer evidence that this
information was inaccurate in the first place. Id. ,
16

SCP-49

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 17 of 24

18 F. App'x 315, 319 (6th Cir. 2001)

(holding that summary

judgment was properly granted on § 1681i claim where agency
followed ACDV procedure, furnisher verified that information was
accurate, and consumer failed to adduce evidence showing that
investigation was inadequate).
Plaintiff argues that that a reinvestigation is not
"reasonable" when it consists merely of contacting the furnisher
to see if they stand by their information. PI. Opp. re: Equifax
14. But the cases cited by plaintiff do not support this
construction. Rather, all they establish is that "the parameters
of a reasonable investigation will depend on the circumstances
of a particular dispute," and that "a credit reporting agency
may be required, in certain circumstances, to verify the
accuracy of its initial source of information."'Jones v.
Experian Info. Solutions, Inc., 982 F. Supp. 2d 268, 273
(S.D.N.Y. 2013)

(emphasis added and alteration omitted) (first

quoting Cortez v. Trans Union, LLC, 617 F.3d 688, 713 (3d Cir.
2010), then quoting Cushman v. Trans Union Corp., 115 F.3d 220,
225 (3d Cir. 1997)). "Courts have noted that a number of factors
will determine the extent of the CRA's reinvestigation,"
including "whether the consumer has alerted the reporting agency
to the possibility that the source may be unreliable or the
reporting agency itself knows or should know that the source is
unreliable," as well as "the cost of verifying the accuracy of
17

SCP-50

Case l:18-cv-0.6210-JSR-KHP Document 199 Filed 09/13/19 Page 18 of 24

the source versus the possible harm inaccurately reported
information may cause the consumer." Id. (quoting Cushman, 115
F.3d at 225).
Here, plaintiff has adduced no record evidence suggesting
that any of the furnishers at issue were unreliable, nor has
plaintiff identified what additional steps Equifax should have
taken in response to her disputes. Indeed, it bears repeating
that r for the vast majority of the alleged inaccuracies
plaintiff asserts, she still has not provided evidence that the
information was even incorrect. Under these circumstances, a
jury could not reasonably conclude that Equifax flailed to
conduct a reasonable reinvestigation.
Finally, Equifax received a letter dated February 16, 2018
from plaintiff directly, in which plaintiff claimed that Equifax
was reporting an inaccurately high utilization rate. Equifax SMF
1 55. Plaintiff did not identify the account or accounts for
which she claimed the utilization rate was too high. Equifax
claims that it sent her a letter asking her to be more specific.
Id. t 55. Plaintiff claims that she never received that letter.
Cohen Decl. ! 12, PI. Exh. A, ECF No. 188. It does not matter,
however, because the duty to reinvestigate is triggered only
when the consumer identifies the "item of information" that is
purportedly incomplete or inaccurate. 15 U.S.C. §
1681i(a)(1)(A). By failing to identify the accounts for which
18

SCP-51

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 19 of 24

her utilization rate was allegedly too high, plaintiff did not
draw to Equifax's attention any "item of information" that it
could re-investigate.
Plaintiff also argues that Equifax violated §
16811(a)(5)(A)(i) by failing to delete inaccurate information
from her file. However, plaintiff has not adduced any evidence
establishing that the disputed information was inaccurate.
Notably, neither the November 15 letter nor the February 16
letter disputed any of the information - such as plaintiff's
telephone number or address - for which the Court, has found
there to be record evidence supporting a finding of inaccuracy.
3.

Willful FCRA Violation

Plaintiff argues that Equifax willfully violated the FCRA.
Where willfulness is established, a plaintiff may recover
punitive as well as actual damages. 18 U.S.C. § 1681n(a). The
Court has already concluded, however, that summary judgment must
be granted in favor of defendants on all of plaintiff's
substantive FCRA claims. Plaintiff has not adduced record
evidence from which a jury could reasonably conclude that
defendants violated the FCRA at all. It follows that plaintiff
also cannot establish that defendants violated the FCRA
willfully.
Accordingly, even taking the evidence in the light most
favorable to plaintiff, there simply is not sufficient record
19

SCP-52

Case l:18-cv-Q6210-JSR-KHP Document 199 Filed 09/13/19 Page 20 of 24

evidence for a fact-finder to render a verdict in plaintiff's
favor on any claim. Equifax's motion for summary judgment is
therefore granted, and plaintiff's motion for summary judgment
against Equifax is denied.
C.

Trans Union Motion for Summary Judgment

Trans Union also moves for summary judgment on all counts,
for much the same reasons as Equifax. Trans Union Mem. 1-2, ECF
No. 158. As discussed further below, the Court again agrees.
1.

Failure to Follow Reasonable Procedures

As with Equifax, plaintiff's first claim against Trans Union
is that Trans Union failed to follow "reasonable procedures" to
maintain the accuracy of its information, in violation of 15 U.S.C.
§ 1681e(b). Plaintiff asserts the existence of "a vast array of
inaccuracies in her file, including wrong addresses, dates, and
telephone numbers, and misspellings of her name, incorrect balance
and

utilization

rates,

and

the

failure

to

remove

outdated

delinquencies." PI. Opp. re: Trans Union 6-7, ECF No. 186. But, as
discussed above relating to Equifax, plaintiff has not produced
any competent evidence substantiating these supposed inaccuracies,
with the possible exception of the allegedly inaccurate addresses
and telephone numbers.
Plaintiff argues that, because Trans Union ultimately removed
two of the disputed accounts - Applied Bank and Cortrust - from
plaintiff's file, Trans Union has effectively conceded that those
20

SCP-53

Case 1:18-CV-06210-J SR-KHP Document 199 Filed 09/13/19 Page 21 of 24

t

accounts were inaccurate. Pi. Opp. re: Trans Union 6. But that
does not follow. The FCRA permits removal of information that is
"inaccurate or incomplete or cannot be verified," 15 U.S.C.

§

1681i(a)(5),

a

so

removal,

standing

alone,

does

not

imply

determination that the information was inaccurate.
In any event, "even if the information [in a credit report]
is inaccurate,

a credit reporting agency is not held strictly

liable under the FCRA merely for reporting it; rather, the consumer
must show that the agency failed to follow reasonable procedures
in generating the inaccurate report." Whelan, 862 F. Supp. at 829.
Plaintiff has adduced no admissible evidence suggesting that Trans
Union's procedures were unreasonable.
Plaintiff

argues

that

a

jury

could

infer

Trans

Union's

procedures were unreasonable from a variety of factors - including
"the

sheer

number

and

diversity

of

the

inaccuracies

in

the

Plaintiff's credit file," a 2012 statistic drawn from an unrelated
settlement

agreement

about

the prevalence

of. inaccuracies

in

consumer reports in general, and the fact that Trans Union is
frequently sued. PI. Opp. re: Trans Union 9-10. The Court finds
none of this persuasive. First, while plaintiff asserts that her
file contained myriad errors, the Court emphasizes once more that
she has not produced evidence to corroborate that assertion.
Second, a 2012 statistic about the prevalence of inaccuracies in
consumer

reports

in

general,

which
21

plaintiff

draws

from

an

SCP-54

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 22 of 24

unrelated settlement agreement, proves nothing about Trans Union's
procedures

in this particular case.

This

is particularly true

because Trans Union agreed to improve its procedures for ensuring
data accuracy as a part of this 2015 settlement. See PI. Resp. re:
Equifax Exh.

H,

ECF No.

188.

Third,

the quantity of lawsuits

against a defendant by other plaintiffs is not itself evidence of
anything. A jury could not reasonably infer, from this scant proof,
that

Trans

Union's

procedures

to

ensure

accuracy

were

unreasonable.
2.

Failure to Conduct Reasonable Reinvestiqation

Plaintiff's second claim is that Trans Union failed to conduct
a

reasonable

reinvestigation

1681i(a)(1)(A).

pursuant

to

15

U.S.C.

§

The uncontradicted record evidence is that,

in

response to all but the last of plaintiff's disp'utes at issue in
this case, Trans Union conducted a reinvestigation that consisted
of contacting the furnisher and asking it to verify whether the
information was accurate.10 Trans Union SMF If* 1-65.
again argues

that these

matter of law.
concludes

that,

PI.
for

Opp.
the

investigations

were

Plaintiff

insufficient

as

a

re: Trans Union 15-16. The Court again
same

reasons

given

above

relating to

10 As with Equifax, plaintiff argues that Trans Union failed to
investigate some account balances and utilization rates disputed in the
November 15 White Letter. PI. Reply to Trans Union Resp. 2-3, ECF No.
191. As with Equifax, however, plaintiff offers no evidence to support
this point or the proposition that the disputed information was
inaccurate in the first place. Id.

SCP-55

22
:

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 23 of 24

Equifax, under the circumstances of this case plaintiff has not
shown and cannot show that these investigations were unreasonable.
Moreover, as to the disputes initiated by CreditRepair.com,
the

Court

again concludes,

relating to Equifax,

for the same reasons

given above

that these disputes were not "directly"

initiated by plaintiff

so

as

to

trigger

any

reinvestigation

obligation.
Finally, as to the February 2018 dispute, Trans Union does
not claim to have initiated a reinvestigation. Trans Union SMF SI
67. However, the Court again concludes, for the same reasons given
above relating to Equifax, that plaintiff's complaint of too-high
"utilization rates," without identifying the accounts at issue,
was too vague to trigger any reinvestigation requirement.
3.

Willfulness FCRA Violation

Finally, plaintiff claims that Trans Union willfully violated
the FCRA. Because the Court concludes that no reasonable factfinder
could find that Trans Union violated the FCRA, even taking the
evidence in the light most favorable to plaintiff^ it follows that
no reasonable factfinder could find that Trans Union willfully
violated the FCRA.
As with Equifax, even taking the evidence in the light most
favorable to plaintiff,

there simply is not sufficient record

evidence for a fact-finder to render a verdict in plaintiff's favor
against Trans Union on any claim. Trans Union's motion for summary
23

SCP-56

Case l:18-cv-06210-JSR-KHP Document 199 Filed 09/13/19 Page 24 of 24

judgment

is

therefore

granted.

Plaintiff'' s mqtion

for

summary

judgment against Trans Union is denied.

III. Conclusion
In summary, Plaintiff has failed to produce admissible
evidence substantiating her assertion that most of the disputed
information in either her Equifax credit report or her Trans
Union credit report was false. Even as to those few items for
which plaintiff's deposition suffices to create a genuine
dispute of fact as to falsity, plaintiff has adduced no evidence
that the falsity was the result of Equifax's or Trans Union's
failure to follow reasonable procedures. Nor has plaintiff
produced any evidence that either Equifax or Trans Union ever
failed, following notification of a dispute directly from her,
to conduct a reasonable reinvestigation. Even taking all
evidence in the light most favorable to plaintiff and resolving
all credibility disputes in her favor, no reasonable jury could
render a verdict in her favor against either defendant.
Accordingly, defendants are entitled to summary judgment on all
counts, and plaintiff's case must be dismissed with prejudice.
Clerk to enter judgment.
SO ORDERED.
Dated:

New York, NY
September f_^r 2019

24

SCP-57

Case 19-3063, Document 97-1, 09/10/2020, 2927339, Pagel of 10

19-3063
Cohen v. Equifax Information Services, LLC

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 10th day of September, two thousand twenty.
PRESENT:
JOHN M. WALKER, JR.,
ROBERT A. KATZMANN,
RAYMOND J. LOHIER, JR.,
Circuit Judges.

Sherri Cohen,
Plaintiff-Appellant,
19-3063

v.

Equifax Information Services, LLC, Transunion
LLC,
Defendants-Appellees,
Experian Information Solutions, Inc.,
Defendant.

FOR PLAINTIFF-APPELLANT:

Sherri Cohen, pro se,
Middletown, NY.

SCP-58

Case 19-3063, Document 97-1, 09/10/2020, 2927339, Page2 of 10

FOR DEFENDANT-APPELLEE EQUIFAX
INFORMATION SERVICES, LLC:

Esther Slater McDonald,
Seyfarth Shaw LLP, Atlanta,
GA.

FOR DEFENDANT-APPELLEE TRANSUNION LLC:

Camille R. Nicodemus, Colin
C. Poling, Schuckit &
Associates, P.C., Zionsville,
IN.

Appeal from a judgment of the United States District Court for the Southern District of
New York (Rakoff,Parker, M.J.).

UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED.
Appellant Sherri Cohen, proceeding pro se, sued credit reporting companies Equifax
Information Services, LLC (“Equifax”) and Transunion LLC (“Transunion”) under the Fair Credit
Reporting Act (“FCRA”), 15 U.S.C. § 1681 et seq. The district court denied Cohen leave to
amend her complaint to include a civil RICO claim, and it granted summary judgment to the
defendants, finding that Cohen had not established a genuine dispute of material fact as to whether
the defendants (1) failed to follow reasonable procedures to assure the accuracy of her credit report,
in violation of 15 U.S.C. § 1681e(b), (2) failed to reasonably reinvestigate disputed information in
her credit file, in violation of 15 U.S.C. § 1681i, or (3) willfully violated the FCRA. We assume
the parties’ familiarity with the underlying facts, the procedural history of the case, and the issues
on appeal.
I.

Summary Judgment

We review a grant of summary judgment de novo, “resolv[ing] all ambiguities and
draw[ing] all inferences against the moving party.” Garcia v. Hartford Police Dep’t, 706 F.3d
120, 126-27 (2d Cir. 2013) (per curiam). “Summary judgment is proper only when, construing
2

SCP-59

Case 19-3063, Document 97-1,09/10/2020, 2927339, Page3 of 10

the evidence in the light most favorable to the non-movant, ‘there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law.’” Doninger v. Niehoff,
642 F.3d 334, 344 (2d Cir. 2011) (quoting Fed. R. Civ. P. 56(a)).
A.

Inaccuracies

The parties agree that a plaintiff must demonstrate that her credit report contained
inaccurate information in order to prevail on a claim under § 1681e(b) or § 168li. The district
court found that Cohen at most raised a genuine dispute as to whether her Equifax file contained
inaccurate addresses and her Transunion file contained inaccurate addresses and telephone
numbers, but not as to any other alleged inaccuracy.
The district court correctly noted that Cohen cited only to her complaint, her deposition,
and her declaration as evidence that her credit report contained inaccuracies, and that her complaint
was not evidence. See Colon v. Coughlin, 58 F.3d 865, 872 (2d Cir. 1995) (a complaint is treated
as an affidavit for summary judgment purposes only if the plaintiff “verifie[s] his complaint by
attesting under penalty of perjury that the statements in the complaint [are] true to the best of his
knowledge”). We agree that the declaration and most of Cohen’s deposition testimony were “too
vague and conclusory” to raise a genuine dispute regarding the existence of other inaccuracies.
Even with respect to the Applied Bank balances and utilization rates, about which she gave at least
some information about the nature of the inaccuracy, Cohen did not explain what the correct
information would have been.
On appeal, Cohen argues that there was other evidence of inaccuracies in the record that
the district court overlooked and that the district court applied the wrong legal standard when
evaluating her claims. But, contrary to her argument, the district court explicitly considered the
3

SCP-60

Case 19-3063, Document 97-1, 09/10/2020, 2927339, Page4 of 10

dispute letters written by her attorney. These records of Cohen’s disputes (and the fact that the
agencies initiated investigations in response to them) are merely evidence that Cohen made
allegations of inaccuracies. The attachments to the dispute letters written by Cohen’s attorney
fail to raise a genuine dispute of fact: they included only receipts documenting prior disputes and
then-current balance statements for CapitalOne and Merrick Bank accounts. Nothing in the
record suggests that CapitalOne and Merrick Bank did not timely report this balance information
to the agencies, or that the agencies failed to update Cohen’s file to accurately reflect it. Although
Cohen argues that the district court drew an improper inference against her when it found that
Cortrust’s nonresponse to an agency verification request was not evidence that the information
previously reported by Cortrust was inaccurate, a reasonable juror could not conclude that
information in Cohen’s credit file was inaccurate based on this fact. See Gallo v. Prudential
Residential Servs., Ltd. P’ship, 22 F.3d 1219, 1224 (2d Cir. 1994) (“When no rational jury could
find in favor of the nonmoving party because the evidence to support its case is so slight, there is
no genuine issue of material fact. .. .”). Finally, Cohen argues that the district court applied the
wrong legal standard by failing to consider evidence of inaccuracies as a whole, analogizing to the
standard applied to evidence in a discrimination case to prove discriminatory intent. This analogy
is inapposite: considering the evidence as a whole and construing it in the light most favorable to
Cohen, the evidence fails to create a genuine dispute of material fact concerning the existence of
other inaccuracies.
B.

Reasonable Procedures (§ 1681e)

On appeal, Cohen argues that a reasonable factfinder could find that the defendants did not
maintain reasonable procedures to assure the accuracy of her consumer report based on (1) the
4

SCP-61

Case 19-3063, Document 97-1, 09/10/2020, 2927339, Page5 of 10

number of inaccuracies in her credit report, (2) a statistic regarding the prevalence of errors in
Transunion credit reports drawn from a 2012 settlement agreement, and (3) the fact that one data
furnisher failed to respond to a reinvestigation inquiry from Transunion. We agree with the
district court that this evidence did not give rise to a genuine dispute of material fact regarding the
reasonableness of the agencies’ procedures. As discussed above, Cohen at most raised a genuine
dispute regarding the accuracy of contact information in her credit report. But inaccurate contact
information cannot give rise to liability under § 1681e(b): this section concerns the accuracy of
“consumer reports,” which do not encompass contact information because such information does
not “bear[] on a consumer’s credit worthiness, credit standing, credit capacity, character, general
reputation, personal characteristics, or mode of living.”

15 U.S.C. § 1681a(d)(l); see id.

§ 1681e(b); Williams-Steele v. TransUnion, 642 F. App’x 72, 73 (2d Cir. 2016) (summary order)
(plaintiffs “claims concern[ing] inaccuracies in her credit reports,” including contact information,
“had no bearing on her credit-worthiness, and were therefore not actionable under the FCRA”);
see also Leon v. Murphy, 988 F.2d 303, 308 (2d Cir. 1993) (noting that the Court may affirm a
judgment on any grounds “for which there is a record sufficient to permit conclusions of law”).
C.

Reasonable Reinvestigation (§ 1681 i)

Cohen identifies seven disputes that, she contends, the agencies failed to reasonably
reinvestigate. As discussed above, Cohen conceded that the dispute must concern information
that is actually inaccurate to state a claim under § 1681i, and she raised a genuine dispute of fact
only as to the inaccuracy of addresses and telephone numbers. Of the seven identified disputes,
only one—an alleged October 4, 2016 dispute with Transunion, for which she argues that there is
no evidence of any investigation—concerned inaccurate addresses or telephone numbers.
5

SCP-62

Case 19-3063, Document 97-1, 09/10/2020, 2927339, Page6 of 10

Accordingly, only the October 4, 2016 dispute could give rise to liability.
As a preliminary matter, Cohen did not address this alleged dispute in her opposition to
Transunion’s motion for summary judgment and we decline to reach it for the first time on appeal.
See Harrison v. Republic of Sudan, 838 F.3d 86, 96 (2d Cir. 2016) (appellate courts generally will
not consider an issue raised for the first time on appeal). Even if we were to consider this
allegation, Cohen’s October 4, 2016 communication with Transunion did not trigger any
obligation under § 1681i because it did not dispute the “completeness or accuracy of an[] item of
information” in her file. 15U.S.C. § 1681i(a)(l)(A). If a consumer is not satisfied with the result
of a reinvestigation, the FCRA gives the consumer the right to “file a brief statement setting forth
the nature of the dispute.”

15 U.S.C. § 16811(b).

Transunion presented evidence that, on

October 4, 2016, Cohen submitted a request to add a consumer statement to her credit file listing
two addresses and instructing, “[i]f somebody puts another address, please make it fraudulent.”
This request was not presented to the agency in the form of a dispute, and it is best read to apply
prospectively—i. e. to instruct that any account information associated with a different address in
the future would be fraudulent, not to assert that any account associated with a different address
already in her file was then incomplete or fraudulent.
Moreover, Cohen does not challenge the district court’s legal conclusion that a dispute
generated by a credit repair company without consulting or notifying the consumer does not trigger
the reporting agency’s reinvestigation obligations under § 1681i, and she has thus abandoned that
challenge. LoSacco v. City of Middletown, 71 F.3d 88, 92-93 (2d Cir. 1995) (pro se litigant
abandons issue by failing to raise it in appellate brief). Cohen does, however, briefly argue that
the district court erred in finding that the credit repair company Creditrepair.com generated
6

SCP-63

Case 19-3063, Document 97-1, 09/10/2020, 2927339, Page7 of 10

disputes without consulting with her or notifying her of their content. However, as the district
court found, Cohen repeatedly testified that, after she retained Creditrepair.com’s services, it
generated disputes without her input or that she had no memory of being involved in initiating the
disputes.
In the absence of any dispute that (1) concerned information for which there is a genuine
dispute of fact regarding accuracy and (2) triggers the reporting agency’s reinvestigation
obligations, we do not reach Cohen’s argument that the agencies’ procedures for reinvestigating
disputed information are not “reasonable” under § 1681 i.
D.

Willful Violations

As the district court found, because Cohen failed to demonstrate a violation of § 1681e or
§ 1681 i, she necessarily failed to show a willful violation of those sections. Cohen also failed to
raise a genuine dispute of material fact as to whether the agencies willfully violated the FCRA by
imposing a “litigation lock” on her credit file. See Leon, 988 F.2d at 308 (noting that the Court
may affirm on grounds upon which the district court did not rely). Cohen does not explain how
the alleged litigation locks could violate § 1681 e or § 1681 i. In deference to Cohen’s pro se status,
we liberally construe her filings to raise and preserve for review a claim that this practice
constituted a willful violation of 15 U.S.C. § 1681g(a), which establishes a consumer’s right to her
credit file “upon request.

15 U.S.C. § 1681g(a).

But the evidence does not establish a genuine dispute as to whether Cohen was denied
access to her credit file or that the agencies otherwise violated this provision of the FCRA. Cohen

l

We liberally construe Cohen’s filings despite the fact that both her brief and reply on
appeal state that they were “drafted in whole, or substantial part, by an attorney.”
7

SCP-64

Case 19-3063, Document 97-1, 09/10/2020, 2927339, Page8 of 10

points to the following evidence to support her “litigation lock” claim: (1) Equifax’s admission
that it placed a code in her file to steer her inquiries to a legal response team, (2) Transunion’s
admission that it placed a “lock” on her file, (3) the fact that she was denied access to Equifax’s
credit monitoring program, (4) a notice from the company Identity Guard, and (5) a transcript of
Cohen’s telephone conversations with Equifax customer representatives. Transunion conceded
that it imposed a “litigation lock” on Cohen’s account on July 19, 2018, pursuant to which all of
Cohen’s queries were addressed by Transunion’s outside litigation counsel rather than its usual
customer representatives. But § 1681 g(a) would not be violated by routing credit queries through
a legal team; nor would it be violated by refusing membership in a credit monitoring service. See
15 U.S.C. § 1681g(a). Moreover, Cohen’s evidence regarding Identity Guard—a notice from that
company—says only that there was insufficient data in her credit file to compile a report, not that
the company could not access her file. Finally, the transcripts do not show that Cohen was denied
access to her Equifax credit file; they only show that her requests were routed to Equifax’s legal
team. Cohen does not argue that any request for credit information directed to the agencies’ legal
teams was denied.
II.

Discovery

We review a district court’s discovery rulings for abuse of discretion. See DG Creditor
Corp. v. Dabah (In re DG Acquisition Corp.), 151 F.3d 75, 79 (2d Cir. 1998). A district court has
abused its discretion “if it based its ruling on an erroneous view of the law or on a clearly erroneous
assessment of the evidence.” Residential Funding Corp. v. DeGeorge Fin. Corp., 306 F.3d 99,
107 (2d Cir. 2002) (internal quotation marks omitted).
On appeal, Cohen argues that the district court erred in denying her request to depose

8

SCP-65

Case 19-3063, Document 97-1, 09/10/2020, 2927339, Page9 of 10

information technology workers from the agencies. But she does not challenge the district court’s
rulings that her objection to the magistrate judge’s order denying this discovery request was
untimely and her objection to the magistrate judge’s order denying reconsideration was without
merit. These challenges are thus waived. See Norton v. Sam’s Club, 145 F.3d 114, 117 (2d Cir.
1998) (“Issues not sufficiently argued in the briefs are considered waived and normally will not be
addressed on appeal.”). Even setting aside timeliness and waiver, the district court did not abuse
its discretion in denying Cohen’s discovery request because Cohen has not explained how
additional information about the capabilities of the agencies’ computer systems would support her
claim. See Fed. R. Civ. P. 26(b)(1).
III.

Leave to Amend Complaint

“While generally leave to amend should be freely granted, it may be denied when there is
a good reason to do so, such as futility, bad faith, or undue delay.” Kropelnicki v. Siegel, 290
F.3d 118,130 (2d Cir. 2002) (citation omitted). We generally review the denial of leave to amend
for abuse of discretion, although we review de novo where the denial is based on the resolution of
legal questions. Thea v. Kleinhandler, 807 F.3d 492, 496 (2d Cir. 2015).

Cohen argues that the

district court erred in denying leave to amend her complaint to include a civil RICO claim because
such an amendment would not have been futile, but she does not address the district court’s
alternative dispositive holding that the motion to amend must be denied based on undue delay.
Her challenge to that ruling is thus also waived. See Norton, 145 F.3d at 117.

SCP-66
9

Case 19-3063, Document 97-1,09/10/2020, 2927339, PagelO of 10

We have considered all of Cohen’s remaining arguments and find them to be without merit.
Accordingly, we AFFIRM the judgment of the district court.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

10

SCP-67

Case 19-3063, Document 102, 09/22/2020, 2935654, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 22nd day of September, two thousand twenty,
Before:

John M. Walker, Jr.,
Robert A. Katzmann,
Raymond J. Lohier, Jr.,
Circuit Judges.

Sherri Cohen,

ORDER
Docket No. 19-3063
Plaintiff - Appellant,

v.
Equifax Information Services, LLC, Transunion LLC,
Defendants - Appellees,

Experian Information Solutions, Inc.,

\

Defendant.

Appellant Sherri Cohen having filed a petition for panel rehearing and the panel that
determined the appeal having considered the request,
IT IS HEREBY ORDERED that the petition is DENIED.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

Additional material
from this filing is
available in the
Clerk's Office.

